       TIGTA Semiannual Report to Congress




                                                                          Table of Contents

                                                                                 (Click on page number to go to that page)

     Inspector General’s Message to Congress .......................................................................... 1

     TIGTA’s Profile .............................................................................................................................. 3
              Statutory Mandate .................................................................................................................. 3
              Organizational Structure ........................................................................................................ 4
              Authorities .............................................................................................................................. 4

     Promote the Economy, Efficiency, and Effectiveness of Tax Administration .............. 5
              Systems Modernization .......................................................................................................... 5
              Tax Compliance Initiatives .................................................................................................... 9
              Security of the IRS ................................................................................................................. 11
              Providing Quality Customer Service Operations ................................................................... 15
              Erroneous and Improper Payments ........................................................................................ 18
              Taxpayer Protection and Rights ............................................................................................. 22
              Processing Returns and Implementing Tax Law Changes .................................................... 22

     Protect the Integrity of Tax Administration ........................................................................... 25
              Employee Integrity ................................................................................................................. 27
              Employee and Infrastructure Security .................................................................................... 31
              External Attempts to Corrupt Tax Administration ................................................................ 33

     Awards and Special Achievements ........................................................................................ 35

     Congressional Testimony .......................................................................................................... 37

     Audit Statistical Reports ............................................................................................................ 39
              Reports with Questioned Costs .............................................................................................. 39
              Reports with Recommendations That Funds Be Put to Better Use ....................................... 40
              Reports with Additional Quantifiable Impact on Tax Administration .................................. 41

     Investigations Statistical Reports ........................................................................................... 43
              Complaints/Allegations Received by TIGTA ........................................................................ 43
              Status of Complaints/Allegations Received by TIGTA ......................................................... 43
              Investigations Opened and Closed ......................................................................................... 43



ii       October 1, 2005 through March 31, 2006
                                                               TIGTA Semiannual Report to Congress



        Financial Accomplishments ................................................................................................... 43
        Status of Closed Criminal Investigations ............................................................................... 44
        Criminal Dispositions ............................................................................................................ 44
        Administrative Disposition on Closed TIGTA Investigations ............................................... 44




Appendices

Appendix I - Statistical Reports – Other ................................................................................ 45
        Audit Reports with Significant Unimplemented Corrective Actions .................................... 45
        Other Statistical Reports ........................................................................................................ 53

Appendix II - Audit Products ..................................................................................................... 55
        October 1, 2005 - March 31, 2006 ..................................................................................... 55

Appendix III – TIGTA’s Statutory Reporting Requirements .............................................. 59

Appendix IV - Section 1203 Standards ................................................................................. 63

Appendix V - Data Tables Provided by the IRS (Employee Misconduct Reports) ....... 65
        IRS Memorandum .................................................................................................................. 65
        Report of Employee Misconduct for the Period 10/01/05 - 3/31/06
        Summary by Disposition Groups ........................................................................................... 66
        Report of Employee Misconduct for the Period 10/01/05 - 3/31/06
        National Summary ................................................................................................................. 67
        Summary of Substantiated §1203 Allegations Recorded in ALERTS
        for the Period 10/01/05 - 3/31/06 ........................................................................................... 68




                                                                 October 1, 2005 through March 31, 2006                                         iii
The expenses of government, having for
their object the interest of all, should be
borne by everyone, and the more a man
enjoys the advantages of society, the
more he ought to hold himself honored in
contributing to those expenses.


            ~Anne Robert Jacques Turgot
                                      TIGTA Semiannual Report to Congress




                              Inspector General’s
                                      Message to
                                        Congress


    Our nation’s government depends on a tax collection system that is effective, efficient
and fair. To maintain the integrity of this system, American citizens must have faith that
the tax dollars they pay are fairly assessed and that tax laws are effectively enforced. The
Treasury Inspector General for Tax Administration (TIGTA) is charged with ensuring that
these responsibilities are met. Throughout my 17 months as Inspector General, I have
remained dedicated to upholding this important mission upon which our government relies.

    I am proud of our accomplishments and pleased to submit TIGTA’s Semiannual Report
to Congress, which presents the highlights of our work from October 1, 2005, through
March 31, 2006. This report highlights some of our most notable audits and investigations,
and summarizes the statistical results of our work. Over the last six months, TIGTA has
completed 53 audits that have identified more than $18.8 million in total cost savings and
$157.8 million in increased or protected revenue.

    The Internal Revenue Service (IRS) faces many management challenges. I have
identified my primary priorities for TIGTA, which relate to those challenges. They include:
overseeing the IRS’ efforts to modernize technology; enhancing TIGTA’s ability to protect
tax administration from corruption; and monitoring the IRS’ efforts to improve tax
compliance, including its use of private debt-collection agencies.

    In addition to these priorities, other events influenced TIGTA’s work during this
reporting period. Congressional concern over IRS plans to reduce some taxpayer services
resulted in legislation passed late last year that requires TIGTA to examine the IRS
proposals before implementation. TIGTA’s audits included examinations of plans to
reduce toll-free telephone service hours and close 68 Taxpayer Assistance Centers.

   Hurricanes Katrina, Rita and Wilma and their devastating aftermath also affected the
focus of our work during this period. TIGTA is participating in the Inspectors General’s



                                             October 1, 2005 through March 31, 2006            1
    TIGTA Semiannual Report to Congress



      coordinated oversight of the government’s multi-billion dollar hurricane relief efforts. As
      part of this oversight, TIGTA is conducting a series of audits to evaluate the performance of
      the IRS’ relief efforts on behalf of taxpayers who were affected by the hurricanes.
      TIGTA’s work to date is included in this report.

          Protecting tax administration from corruption has always been one of TIGTA’s highest
      priorities. Over the last six months, we have opened 1,639 new investigations and closed
      1,701 involving the unauthorized access to or disclosure of confidential taxpayer
      information, bribery of government officials, theft of government funds, bank fraud, and
      bomb threats. In addition, our Office of Chief Counsel has reviewed 189 proposed
      regulations and legislative requests.

          In our effort to enhance TIGTA’s high standards, we have identified opportunities to
      further our organization’s success. TIGTA recently established a pilot Inspection and
      Evaluation Unit, which we anticipate will allow us to respond more quickly to requests for
      reviews of tax administration programs or activities from Congress and other stakeholders.
      Also, TIGTA expanded its authorized uses of certain investigative data. This enhanced
      authority allows us to share the results of investigations with victims and/or complainants
      and their representatives. I believe that these initiatives will strengthen our organization
      and our ability to fulfill our mission on behalf of taxpayers.

          Despite challenges that may lie ahead, TIGTA remains firmly committed to carrying
      out its mission: To ensure the integrity, effectiveness, and accountability of America’s tax
      administration system.



                                               Sincerely,


                                           J. Russell George
                                           Inspector General




2    October 1, 2005 through March 31, 2006
                                           TIGTA Semiannual Report to Congress




                                                   TIGTA's Profile


T    he Treasury Inspector General for Tax
     Administration (TIGTA) provides
independent oversight of Treasury
                                                  TIGTA conducts audits and investigations
                                                  designed to:
                                                  •    promote the economy, efficiency, and
Department matters involving IRS
                                                         effectiveness of tax administration; and
activities, the IRS Oversight Board, the
National Taxpayer Advocate, and the IRS           •    protect the integrity of tax
Office of Chief Counsel. Although we are                 administration.
placed organizationally in the Treasury
Departmental Offices and report to the
Secretary of the Treasury and to Congress,
we function independently from the                       TIGTA’s Statutory Mandate
Departmental Offices and all other offices
and bureaus within the Department.                    Protect against external attempts to
                                                        corrupt or threaten IRS employees.
Our work is devoted to all aspects of                 Provide policy direction and conduct,
activity related to the Federal tax system as           supervise, and coordinate audits and
                                                        investigations related to IRS programs
administered by the IRS. By identifying                 and operations.
and addressing the IRS’ management                    Review existing and proposed legislation
challenges, implementing the President’s                and regulations related to IRS programs
Management Agenda and the priorities of                 and operations and make
the Department of the Treasury, and                     recommendations concerning the impact
overseeing the IRS as it strives to achieve             of such legislation or regulations.
its strategic goals, we protect the public’s          Promote economy and efficiency in the
                                                        administration of tax laws.
confidence in the tax system.
                                                      Prevent and detect fraud and abuse in
Our primary functional offices are the                  IRS programs and operations.
Office of Audit (OA) and the Office of                Inform the Secretary of the Treasury
                                                        and Congress of problems and
Investigations (OI). Our Offices of Chief               deficiencies identified and of the
Counsel, Information Technology, and                    progress made in resolving them.
Management Services support OA and OI
efforts. (See organizational chart, next
page.)




                                                October 1, 2005 through March 31, 2006              3
     TIGTA Semiannual Report to Congress


                .

    TIGTA’s Organizational Structure


                                                    Inspector General




                               Chief Counsel




                         Deputy Inspector General                     Deputy Inspector General
                                 for Audit                               for Investigations



                                 Assistant                                     Assistant
                             Inspector General                             Inspector General
                         for Management Services                      for Information Technology




     Authorities

     TIGTA has all the authorities granted under              under the internal revenue laws. In
     the Inspector General Act of 1978, as                    addition, the IRS Restructuring and Reform
     amended.1 TIGTA also has access to tax                   Act of 1998 (RRA 98)2 amended the
     information in the performance of its tax                Inspector General Act of 1978 to give
     administration responsibilities and the                  TIGTA statutory authority to carry
     obligation to report potential criminal                  firearms, execute and serve search and
     violations directly to the Department of                 arrest warrants, serve subpoenas and
     Justice. TIGTA and the Commissioner of                   summonses, and make arrests as set forth in
     Internal Revenue have established policies               Section 7608(b)(2) of the Internal Revenue
     and procedures delineating responsibilities              Code (I.R.C.).
     to investigate potential criminal offenses




                                                              2
                                                                  Public Law No. 105-206, 112 Stat. 685 (codified as
                                                                  amended in scattered sections of 2 U.S.C., 5 U.S.C.
                                                                  app., 16 U.S.C., 19 U.S.C., 22 U.S.C., 23 U.S.C.,
     1
         5 U.S.C.A. app. 3 (West Supp. 2005)                      26 U.S.C., 31 U.S.C., 38 U.S.C., and 49 U.S.C.).




4        October 1, 2005 through March 31, 2006
                                            TIGTA Semiannual Report to Congress




                                            Promote the
                                     Economy, Efficiency
                                       and Effectiveness
                                   of Tax Administration
                   (in this section of report, click on audit report reference to go to
                    report location on the internet)




T   IGTA’s Office of Audit strives to promote
    the economy, efficiency, and effectiveness
    of tax administration. TIGTA provides
                                                         IRS’ Major Management Challenges
                                                           •
                                                           •
                                                               Modernization of the IRS
                                                               Tax Compliance Initiatives
recommendations to improve IRS systems and
                                                           •   Security of the IRS
operations, while ensuring fair and equitable              •   Complexity of the Tax Law
treatment of taxpayers. Our comprehensive,                 •   Using Performance and Financial
independent performance and financial audits                     Information for Program and Budget
of IRS programs and operations focus on                          Decisions
                                                           •   Providing Quality Taxpayer Service
mandated reviews and high-risk challenges                        Operations
facing the IRS.                                            •   Erroneous and Improper Payments
                                                           •   Taxpayer Protection and Rights
                                                           •   Processing Returns and Implementing Tax
The IRS’ implementation of audit                                 Law Changes
recommendations has resulted in cost savings               •   Human Capital
and increased or protected revenue; reduction
of taxpayer burden; and protection of taxpayer
rights and entitlements, taxpayer privacy and          The following audit summaries highlight
security, and IRS resources.                           significant audits completed during this six-month
                                                       reporting period and fall into the IRS’ Major
                                                       Management Challenges categories.
Each year, TIGTA identifies and addresses the
major management challenges facing the IRS.
Audit emphasis is placed on statutory                  Systems Modernization of the
coverage required by RRA 98, as well as on             Internal Revenue Service
areas of concern to Congress, the Secretary of
the Treasury, the Commissioner of Internal             Modernization of the IRS includes both
Revenue, and other key stakeholders. The               computer systems and business structure
challenge areas for Fiscal Year (FY) 2006 are          (reorganization) modernization. Although
outlined in the following chart:                       both issues have their own sets of challenges,
                                                       they must both succeed to fully modernize the
                                                       IRS. Business Systems Modernization (BSM)
                                                       involves integrating thousands of hardware



                                                 October 1, 2005 through March 31, 2006                  5
    TIGTA Semiannual Report to Congress



    and software components over 15 years. The                documentation contributed to the ExFIRS
    program is in its 7th year and has allocated              experiencing cost overruns and schedule
    approximately $1.9 billion for contractor and             delays. In addition, cost-plus-fixed-fee and
    integrator activities. The IRS and its                    time and materials contracts awarded for the
    contractors have deployed projects that                   ExFIRS are generally not appropriate once it
    provide value to taxpayers and have built                 is determined that the development of a
    infrastructure needed to support these projects.          system is achievable and the duration and
    However, since the start of the modernization             extent of work and anticipated costs can be
    effort, the BSM Program has experienced cost              accurately estimated. TIGTA also found that
    overruns and schedule delays in its project               a capacity study and stress test to ensure that
    development and deployment.                               system capacity would be sufficient prior to
                                                              the electronic filing mandate had not been
    Excise Taxes Computer Systems                             completed for the ExSTARS.
    The IRS estimates that taxpayer avoidance of
    motor fuel excise taxes costs the Highway                 Overall, TIGTA found that performance
    Trust Fund nearly $1 billion in annual                    standards and acceptable quality levels were
    revenue. However, despite receiving                       not consistently documented and measurable
    approximately $59 million since 1999 for                  for the contract statements of work, the
    enhanced program monitoring and data                      acceptance criteria section defined
    analysis, the IRS has not effectively                     requirements for the deliverables in
    implemented either its Excise Files                       nonmeasurable terms, and the due dates were
    Information Retrieval System (ExFIRS)3 or                 generally not specific.
    the Excise Summary Terminal Activity
    Reporting System (ExSTARS)4 to identify                   TIGTA made several recommendations to
    potential tax compliance issues. The IRS has              enhance the ExFIRS and ExSTARS. For
    worked with information document filers for               example, the IRS should develop a plan and
    several years to improve the filers’ reporting            schedule for initiating an examination
    accuracy. As of October 2005, indications                 program based on identified discrepancies and
    were that the data perfection issue would                 clarify ExSTARS objectives. The IRS should
    continue to pose a significant problem when               update appropriate project management
    mandated electronic filing became effective               documents, conduct a stress test to ensure
    on January 1, 2006.                                       sufficient system capacity, complete a
                                                              transition plan for moving the project to
    TIGTA’s audit found that a lack of sufficient             operations and maintenance status, and
    executive oversight and project management                schedule a post-implementation review.

    3
      The Excise Files Information Retrieval System
                                                              In addition, Federal Highway Administration
       (ExFIRS) is an umbrella system made up of nine         representatives should be involved with
       subsystems that support the collection of motor fuel   program management and executive oversight
       industry information, automated analysis of this       when the ExFIRS moves from development to
       information, and identification of areas with the
       highest risk for nonpayment of excise taxes.           operations and maintenance status. Finally,
    4
      The most critical ExFIRS subsystem, designed to track   the ExFIRS should be elevated to a major
       the movement of motor fuel to and from approved        information technology investment.
       terminals by requiring the monthly submission of
       information documents to the IRS reflecting fuel
       quantity and type.




6       October 1, 2005 through March 31, 2006
                                                 TIGTA Semiannual Report to Congress



IRS management agreed with most of                        •   issues identified during estimation
TIGTA’s recommendations and is taking                           activities were not input to the Item
corrective action. However, the IRS did not                     Tracking Reporting and Control System.
specifically comment on the recommendations
to complete a transition plan, conduct a stress           Although cost variances were generally trending
test, or schedule a post-implementation                   downward, the trend was not consistent. Active
review. TIGTA believes these actions are                  and deployed BSM projects have varied from
needed to assure an effective transition to the           original schedule estimates by an average of
Modernization and Information Technology                  18 months.
Services organization and to verify that the
ExFIRS is working properly.                               The IRS has recently taken steps to limit cost
Report Reference No. 2006-20-001                          increases and schedule delays. The IRS is
                                                          establishing a Requirements Management
BSM Contract Cost Estimation                              Office to help avoid recurring issues that have
                                                          contributed to additional project costs and
TIGTA determined that active and deployed
                                                          delays.
IRS BSM projects under PRIME5 contractor
management varied from original cost
                                                          In addition, IRS executives stated that they were
estimates by over $480 million. While the
                                                          concerned that the prevailing variance
BSM Office has made progress in
                                                          computation methodology did not accurately
implementing cost and schedule estimation
                                                          depict variances within the BSM Program and
recommendations included in a prior TIGTA
                                                          had begun discussions to revise the
report,6 additional actions are necessary.
                                                          methodology.
TIGTA determined that:
                                                          TIGTA recommended that the IRS ensure that:
•   estimate documentation did not explain the
      results of using a second cost and
                                                          •   all modernization systems development
      schedule estimation method;
                                                                contractors provide consistent cost and
•   the PRIME Estimation Guidebook did not                      schedule estimation data;
      clearly present the requirements to use a
                                                          •   clear guidance be issued requiring the results
      second cost and schedule estimation
                                                                of using multiple estimation methods; and
      method;
                                                          •   remaining issues from the IRS PRIME
•   cost and schedule estimate proposals
                                                                Validation Report that are relevant to the
      submitted for review did not contain the
                                                                new environment be documented and
      required supporting documentation; and
                                                                tracked.

                                                          IRS management agreed with the
5
   The PRIME contractor is the Computer Sciences          recommendations and is taking corrective
  Corporation, which heads an alliance of leading         action.
  technology companies that assist the IRS in
  modernizing its computer systems and related            Report Reference No. 2006-20-002
  information technology.
6
   The Cost and Schedule Estimation Process for the
  Business Systems Modernization Program Has Been
  Improved, but Additional Actions Should Be Taken
  (Reference Number 2003-20-219, dated September
  2003).




                                                      October 1, 2005 through March 31, 2006                   7
    TIGTA Semiannual Report to Congress



    Cell Phone Cost Savings                            Support for New System Control Benefits
    TIGTA followed up on its September 2004            The Filing and Payment Compliance (FP&C)
    recommendation to determine the effectiveness      project is a multi-year effort that was initiated
    of the IRS’ corrective actions to establish a      in 2001.7 TIGTA found that the IRS does not
    complete and accurate cellular telephone           have support for more than $16.1 billion of
    inventory. When the IRS validated the              costs and benefits used to justify the project.
    accuracy of its cellular telephone inventory, it   Since the passage of the American Jobs
    resulted in cost savings of approximately          Creation Act of 2004,8 the IRS has made
    $1.4 million annually. In September 2004,          strides to reactivate the F&PC project and
    TIGTA recommended that the IRS establish a         implement the first release. The IRS decided
    complete and accurate inventory of its cellular    that the best solution for the project was to
    telephones and ensure that service is              purchase commercially available software.
    immediately discontinued for unregistered          While the information contained in the draft
    cellular telephones. At the time that report was   Exhibit 3009 supports the IRS’ decision,
    issued, the IRS was unable to provide              TIGTA could not verify the decision because
    information identifying the total inventory of     documentation was not always accurate,
    cellular telephones, the approximate number of     complete, and timely. Specifically,
    unregistered cellular telephones, or total costs   spreadsheets detailing cost and benefit
    for services.                                      calculations for each of the three alternatives
                                                       contained several errors, and the cost and
    IRS management responded that service for          benefit information used to prepare the draft
    unregistered cellular telephones would be          Exhibit 300 could not be supported. In total,
    terminated as of December 31, 2004, and            spreadsheet errors understated the net present
    cellular telephones would be validated             value for one alternative by $1.3 billion and
    annually. At the conclusion of the 2004 annual     overstated another alternative by $8 million.
    validation process, the IRS terminated service     In July 2005, TIGTA reported this issue to
    for 2,908 invalidated cellular telephone           BSM officials, who agreed with the
    numbers.                                           conclusion and revised the spreadsheets. In its
                                                       December 2005 review of the F&PC, TIGTA
    On October 17, 2005, the IRS announced the         determined that the documentation provided
    2005 annual validation of cellular telephones.     as support for 87 percent of the costs and
    This validation process is to be conducted         benefits reviewed ($16.1 billion of
    annually to maintain a complete and accurate       $18.5 billion) did not provide enough detail to
    inventory and ensure the efficient use of
    resources. TIGTA made no recommendations
    for this review. However, IRS management           7
                                                          The IRS initiated the Filing and Payment Compliance
    agreed with the report and outcome measure.          (F&PC) project to address its shortcomings of
    Report Reference No. 2006-20-025                     insufficient staff, collection processes, and systems,
                                                         and increase delinquent tax collections. By
                                                         implementing the F&PC project, the IRS expects to
                                                         increase collections by $15.4 billion over 10 years and
                                                         reduce the inactive delinquent tax case inventory.
                                                       8
                                                          Pub. L. No. 108-357, 118 Stat. 1418 (2004).
                                                       9
                                                          Twice a year, the Office of Management and Budget
                                                         requires Federal Government agencies to complete a
                                                         Capital Asset Plan and Business Case (Exhibit 300) for
                                                         each major information technology investment.




8       October 1, 2005 through March 31, 2006
                                                   TIGTA Semiannual Report to Congress



verify the reliability of the information in the              During the last few years, the IRS has been
draft Exhibit 300.                                            implementing reengineering suggestions
                                                              aimed at increasing the effectiveness of
TIGTA recommended that the IRS revalidate                     enforcement efforts. TIGTA has conducted
the Alternatives Analysis,10 a key component                  several reviews of these initiatives; however,
of the Exhibit 300; develop and maintain                      it is too early to evaluate the full impact.
adequate documentation to support its
decision to purchase commercially available                   Individual Non-Filer Tax Gap
software; and revise the Exhibit 300, if                      In March 2005, the IRS reported that
warranted. As part of the revalidation process,               individual non-filers accounted for an
TIGTA recommended that the IRS perform a                      estimated $30 billion of the total tax gap11 for
quality review of all supporting                              Fiscal Year (FY) 2001. Studies indicate that
documentation for the Exhibit 300 to ensure                   the tax gap for individual non-filers has tripled
the reliability of the documentation. IRS                     from $9.8 billion in Tax Year (TY) 1985 to
management agreed with the                                    over $30 billion in TY 2001.
recommendations and stated that an outside
contractor would perform a revalidation of the                       Tax Gap Amounts Attributable to
Alternatives Analysis and a quality review of                             Individual Non-filers
supporting documentation.
Report Reference No. 2006-20-026


Tax Compliance Initiatives

The completion of the initial phases of the
National Research Project (NRP) allowed the
IRS recently to release an updated estimate of
the tax gap. As a result of the NRP, the IRS
now estimates that taxpayers with self-
employment income underreport between
$51 billion and $56 billion in unemployment                        Source: IRS Tax Gap Estimated Statistics for
tax.                                                                 Tax Years 1985-2001.

The IRS recently received authority and will                  The rate of growth accelerated from TY 1998
begin testing the use of contract staff to work               to TY 2001 as the individual non-filer tax gap
some collection cases. It is too early to tell if             increased 33 percent over these three years.
the contract resources will be able to resolve a              None of these reported figures takes into
significant number of cases or whether they                   account the amount of money owed by the
will remain unresolved.                                       cash or underground economy.

                                                              Since FY 2001, each of the IRS’ business
10
  The Alternatives Analysis provides estimated cost and
                                                              divisions has independently directed its own
 benefit information on viable alternatives to assist
                                                              11
 management in determining the most effective                   The non-filer tax gap is the dollar amount of taxes not
 approach for a project.                                       paid timely on delinquent and non-filed returns.




                                                          October 1, 2005 through March 31, 2006                          9
     TIGTA Semiannual Report to Congress



     non-filer activities. Currently, the IRS does       success. As of March 16, 2005, IRS interim
     not have a comprehensive, national non-filer        reports indicated that 1,039 participating
     strategy or an executive who is charged with        investors had settled their cases by paying or
     overseeing each business division’s non-filer       agreeing to pay more than $2.7 billion in
     efforts.                                            taxes, interest, and penalties.

     TIGTA recommended that the IRS establish a          Despite the IRS’ successful achievements in
     Non-filer Program Office with a position for a      the settlement initiative, much work remains
     Non-filer Executive or a permanent multi-           to resolve the tax accounts of the investors
     divisional group with responsibilities for          who declined or were ineligible to participate
     developing a strategy, implementing                 in the settlement initiative.
     management control systems, and providing
     accountability for all the IRS non-filer efforts.   As of July 2005, IRS officials reported that
                                                         they were continuing to work on
     Each business division should develop               nonparticipating investor cases by ensuring
     measurable program goals to determine the           that all related flow-through entities were
     success of its non-filer efforts and create a       included in examinations, so that all tax
     decision support system for aggregating data        benefits from the “Son of Boss” abusive tax
     concerning the effectiveness of non-filer           shelter could be disallowed.
     programs to improve the voluntary
     compliance levels of non-filers.                    In its March 2006 report, TIGTA made two
     Consideration should be given to the                observations that the IRS may find useful in
     development of an organization-wide tracking        its efforts to curtail abusive tax shelters. First,
     system to monitor the progress of each              experience has demonstrated that the general
     business division’s non-filer strategy action       three-year statutory assessment period was
     items.                                              insufficient for tax administrators to examine
                                                         and assess all identified participants in the
     IRS management agreed with the                      “Son of Boss” abusive tax shelter. At the
     recommendations and is taking corrective            Federal level, where the loss from abusive tax
     action.                                             shelters has been estimated at $85 billion, a
     Report Reference No. 2006-30-006                    provision in the American Jobs Creation Act
                                                         of 2004 (AJCA) provided the IRS with up to
     Abusive Tax Shelters                                an additional year to assess taxes related to a
     The IRS considers identifying and combating         “listed” transaction if it is not properly
     abusive tax shelters a high priority. This was      disclosed on the return. However, TIGTA
     reflected in the emphasis given to the              found that this additional limitation did not
     settlement initiative for investors in a variety    accurately reflect the time needed to complete
     of Bond and Option Sales Strategies,                the examination and assessment process. As a
     commonly referred to as the “Son of Boss”           result, the one-year limitation in the AJCA
     abusive tax shelter.                                could prove overly restrictive to realize
                                                         intended benefits from the extended
     Announced publicly in May 2004, the                 assessment period.
     settlement initiative was closely coordinated
     by IRS management at all levels to ensure its



10        October 1, 2005 through March 31, 2006
                                                   TIGTA Semiannual Report to Congress



The second observation was that the IRS                       adequate for protecting tax revenues and
could plan for and conduct an evaluation that                 deterring participation in abusive tax shelters.
captures the overall successes achieved and                   Report Reference No. 2006-30-065
lessons learned in resolving the “Son of Boss”
abusive tax shelter. Such an evaluation could
provide an important tool for managers to use                 Security of the Internal
if faced with a challenge of this magnitude in                Revenue Service
the future. It would also be consistent with
the Government Performance and Results                        The IRS relies upon critical computer systems
Act12 and IRS guidance for analyzing                          to account for more than $2 trillion in revenue
performance and identifying improvement                       annually. However, significant disaster
options.                                                      recovery program weaknesses continue to be
                                                              unresolved. These recurring weaknesses
To curtail abusive tax shelters, TIGTA                        include: modernization systems being placed
recommended that the IRS, in conjunction                      in production without a disaster recovery
with the Department of the Treasury’s Office                  capability; insufficient disaster recovery
of Tax Policy, determine whether the AJCA                     capacity; roles and responsibilities not being
provision extending the statutory assessment                  assigned and employees not being trained; and
period is adequate to protect tax revenues and                annual tests not being conducted or not being
deter participation in abusive tax shelters. If               effective. In addition, control weaknesses,
the determination shows the AJCA provision                    such as failure to close user accounts when
is likely to be ineffective, a proposal should be             employees leave the IRS, inadequate
prepared for Congress to increase the one-year                documentation of user access authorizations,
limitation under the AJCA provision.                          and insufficient documentation that employees
                                                              have acknowledged their security
TIGTA also recommended that the IRS                           responsibilities continue to exist, even with
designate a study group to evaluate and                       the implementation of a new automated
document its overall performance in resolving                 system to authorize system access.
the “Son of Boss” abusive tax shelter.
                                                              These weaknesses continue to occur because
IRS management agreed with one of the two                     managers and system administrators have not
recommendations and has convened a study                      adhered to system procedures.
group to evaluate the overall performance in
resolving the “Son of Boss” abusive tax                       Federal Information Systems Management
shelter. The study group’s report is expected                 Act Compliance
by June 30, 2006.
                                                              The Federal Information Security
The IRS did not agree to take action and                      Management Act (FISMA)13 requires each
determine whether the AJCA provision                          Federal agency to report annually to the Office
extending the statutory assessment period is                  of Management and Budget (OMB) on the
                                                              effectiveness of its security programs. In
                                                              addition, the FISMA requires that each agency
12
  Pub. L. No. 103-62, 107 Stat. 285 (codified as
                                                              13
 amended in scattered sections of 5 U.S.C., 31 U.S.C.,          The FISMA is part of the E Government Act of 2002,
 and 39 U.S.C.)                                                Pub. L. No. 107-347, Title III, Section 301, 2002.




                                                         October 1, 2005 through March 31, 2006                      11
     TIGTA Semiannual Report to Congress



     shall have performed an annual independent         The IRS continues to use a large number of
     evaluation of the information security program     systems containing sensitive taxpayer data that
     and practices of that agency. In compliance        have been ranked as low risk, most of which
     with the FISMA requirements, TIGTA                 have not been certified and accredited, and
     performs the annual independent evaluation of      have not been adequately tested on an annual
     the security program and practices of the          basis.
     Internal Revenue Service.                          Report Reference No. 2006-20-071

     During FY 2005, the IRS made strides toward        Common Operating Environment Security
     improving security. Most significantly, the        The IRS developed the master Common
     IRS developed a corporate approach to the          Operating Environment (COE) image14 with
     FISMA by elevating its processes and               secure computer configurations and installed
     procedures into an enterprise-wide program.        this image on 95 percent of all employee
                                                        computers as of January 2005. However, once
     A cross-organizational FISMA working group         the COE was installed, security settings were
     was created, reporting to an Executive             not maintained consistently.
     Steering Committee for the development and
     effective coordination of FISMA activities.        TIGTA found 60 of 102 sampled computers
     Executive position descriptions now reflect        with the COE installed complied with less
     security responsibilities. Additionally, a         than 90 percent of the recommended computer
     Security Program Management Office was             settings prescribed by the IRS, or contained at
     established within each business division to       least one item of high-risk vulnerability that
     provide guidance and consistency across IRS        could be exploited either to take control of the
     business divisions in implementing FISMA           computer or render it unusable.
     requirements.
                                                        The IRS also did not ensure that all new
     Recognizing that it will take time to achieve      vulnerabilities on employee computers were
     long-term improvements, TIGTA found that           being addressed. TIGTA found 29 of the
     the process changes taken by the IRS have not      102 sampled computers did not have the latest
     yet had a positive effect on some                  COE update version. COE updates contain
     measurements requested by OMB.                     the latest available security patches to address
                                                        new vulnerabilities.
     Specifically, TIGTA noted concerns with the
     IRS’ system inventory categorization,              The weak security settings and the lack of
     certification and accreditation, continuous        updated COE versions can be attributed to
     monitoring, tracking corrective actions,           system administrators since they are generally
     training employees with key security               the only persons authorized to change security
     responsibilities, contractor oversight, and        settings or install software on employee
     security configuration policies. As a result,      computers.
     TIGTA believes that sufficient attention is not
     yet being given to the security of all sensitive
     systems and to contractor activities.              14
                                                          The COE is a standardized set of commercial
                                                         off-the shelf and internally developed applications
                                                         to support the needs of more than 100,000 IRS
                                                         employees using Microsoft Windows.




12        October 1, 2005 through March 31, 2006
                                                    TIGTA Semiannual Report to Congress



In addition, software licensing can be                        TIGTA also recommended that the IRS use
controlled more effectively on COE                            available tools to identify possible
computers. TIGTA determined that six COE                      unauthorized software installed on computers,
software packages15 should not be included in                 consider purchasing software metering tools,
the COE baseline version because of their                     and assign responsibility for monitoring
costs and limited usage.                                      software with significant license agreement
                                                              costs. IRS management agreed with most of
One of these software packages is the full                    the recommendations and is taking corrective
version of Adobe® Acrobat,® which contains                    action.
advanced features that employees are probably                 Report Reference No. 2006-20-031
either unaware of or rarely use. Although the
IRS paid approximately $2.3 million for full                  Updating Security on Employees’ Computers
versions of Adobe® Acrobat,® most IRS
employees need only the free Adobe® Reader.                   The Tivoli®16 applications provide the IRS
                                                              with the ability to systemically deliver the
The IRS recommends that periodic                              most current versions of software and updated
configuration audits be performed on the                      security patches to employees’ computers and
program hardware, software, and                               to scan the network to help maintain accurate
documentation to ensure that products evolve                  computer inventory records. Because the IRS
properly with recorded traceability and meet                  has over 100,000 employees, these tasks,
program needs. As of February 2006, TIGTA                     although very important, can be daunting.
was not aware that any such software                          Unsuccessful software distributions can lead
configuration reviews were being conducted.                   to missing patches on computers, which in
                                                              turn, could expose the computers to
TIGTA recommended that the IRS hold                           exploitation by hackers, disgruntled
system administrators accountable for                         employees, and/or malicious programs.
maintaining adequate security settings on
computers after the COE has been deployed.                    In addition, maintaining an accurate computer
System administrators should be required to                   inventory is crucial for the accuracy of the
run the IRS’ configuration-checking program                   IRS’ financial statements. The IRS has shown
on a sample of workstations on a periodic                     significant progress in using Tivoli®
basis and follow up on workstations where the                 applications for distributing software updates
COE updates were not successfully installed.                  to computers.

All computers without the COE image should                    Much of that progress can be attributed to the
be identified and actions taken to either install             IRS’ efforts to improve Tivoli’s® ability to
the COE image, replace the computers, or                      connect to more computers. While these
manually bring the computers into compliance                  improvements are commendable, the IRS can
with prescribed security configurations.                      take further actions to improve its software
                                                              distribution success rate, better use Tivoli®
                                                              data for inventory reconciliation and software
                                                              license management, and increase its overall
15
  In addition to the full version of Adobe® Acrobat® ,        ability to connect to computers.
 other applications included InfoConnect, Inso Quick
 View Plus, Winzip, Avery Wizard, and Roxio Easy CD
                                                              16
 Creator.                                                          Tivoli® is a registered trademark owned by IBM.




                                                         October 1, 2005 through March 31, 2006                      13
     TIGTA Semiannual Report to Congress



     To improve software distributions, TIGTA          further damaged New Orleans and the Gulf
     recommended that the IRS develop procedures       Coast area of Texas.
     that provide formal guidance and
     standardization in preparing the distributions.   The IRS had 25 offices affected by the
     To improve the use of Tivoli® software            hurricanes, many of which were closed for
     inventory application data, TIGTA                 short durations because of sustained power
     recommended that the IRS resolve                  outages. Five offices, however, received
     mismatches between Tivoli® data and the           significant damage, which forced closure for
     Information Technology Asset Management           longer periods of time.
     System (ITAMS) and ensure that all desktops,
     laptops, and servers comply with the IRS’         The IRS adequately prepared for Hurricanes
     computer naming standards. In addition, the       Katrina and Rita. The IRS had sufficiently
     IRS should ensure that software management        updated both its Occupant Emergency Plans17
     policies and procedures are provided and          in May 2005 and Incident Management
     responsibility for software management is         Plans18 in March 2004 for the offices affected
     specified.                                        by the hurricanes and conducted training
                                                       sessions for its designated Incident
     To improve Tivoli® computer connectivity,         Commanders.19 It also took action
     TIGTA recommended that the IRS notify all         immediately prior to the hurricanes to enhance
     employees of the need for computers to            post-hurricane employee communications,
     remain online whenever possible, provide that     ensure continued salary payments, and
     employees assigned Tivoli® responsibilities       minimize computer damage in its offices
     have adequate access to computers, separately     affected by the hurricanes.
     account for Tivoli® computers that are taken
     out of service for backup or emergency            After the hurricanes made landfall, the IRS
     purposes, and assign formal responsibility for    expeditiously located all employees and
     incorporating computers without the Tivoli®       restored computer operations in affected
     client software into Tivoli.®                     offices. Emergency Operations Command
                                                       Centers were established in Nashville,
     IRS management agreed with the                    Tennessee, and Dallas, Texas, immediately
     recommendations and is taking corrective          after Hurricanes Katrina and Rita,
     actions.                                          respectively.
     Report Reference No. 2006-20-021

     Hurricanes Katrina and Rita
                                                       17
                                                          An Occupant Emergency Plan contains the
     Hurricane Katrina made landfall on the             procedures for employees to follow during an
     Central Gulf Coast of the United States on         emergency situation.
                                                       18
     August 29, 2005. It caused unprecedented             An Incident Management Plan describes the overall
                                                        coordinated actions to be taken by the Incident
     damage to New Orleans, Louisiana, as well as       Management team to ensure recovery and restoration
     the coastal areas of Mississippi and Alabama,      of a facility when an incident occurs.
                                                       19
     and became the most destructive and costliest        An Incident Commander is directly responsible for
                                                        frontline management of an incident. The Incident
     natural disaster in U.S. history. Hurricane        Commander, in conjunction with other onsite business
     Rita followed less than one month later and        team managers, will develop and implement response
                                                        strategies and use existing disaster preparedness
                                                        documents for the recovery of business operations.




14        October 1, 2005 through March 31, 2006
                                                      TIGTA Semiannual Report to Congress



The IRS focused primary attention on finding                     office’s perimeter and, if necessary, to take
all employees in affected offices. All                           appropriate action either to secure the
517 employees in those offices were accounted                    perimeter or implement measures to prevent
for within 13 days after Hurricane Katrina, and                  unauthorized access.
all 35 employees were accounted for within
five days after Hurricane Rita.                                  TIGTA also recommended that the IRS
                                                                 establish procedures to conduct an inventory
As for its computer operations in the offices                    reconciliation of all computes at IRS facilities
affected by the hurricanes, the IRS restored                     that suffer extensive damage after a major
system access to its Integrated Collection                       disaster to identify possible loss or theft of
System20 application from the five affected                      computers.
offices to the Atlanta, Georgia, office within
five workdays.                                                   IRS management agreed with the
                                                                 recommendations and is taking corrective
Personnel from the IRS’ Modernization and                        action.
Information Technology Services                                  Report Reference No. 2006-20-068
organization21 also transferred employees’
work files to another network so that
employees in affected offices could continue                     Providing Quality Taxpayer
to work. However, TIGTA was unable to                            Service Operations
definitively state that taxpayer data were
protected in the wake of Hurricanes Katrina                      Each year, millions of taxpayers contact the
and Rita because seven computers from two                        IRS seeking assistance in understanding the
offices affected by the hurricanes could not be                  tax law and in meeting their tax obligations by
located.                                                         either calling the various toll-free telephone
                                                                 assistance lines, accessing the IRS Internet site
TIGTA confirmed that none of the missing                         or visiting an IRS Taxpayer Assistance Center
computers were used to access the IRS                            (TAC). Walk-in assistance has proved to be
computer network after the hurricanes, so any                    particularly helpful for lower-income
loss of data would have been limited to the                      taxpayers and those with limited or no English
data on the missing computers.                                   language proficiency.
TIGTA recommended that the IRS establish                         The IRS discontinued its TeleFile Service,
procedures to require a team of employees or                     used by nearly 4 million taxpayers, in August
government entities to visit an office as soon                   2005. Earlier in 2005, the IRS stated that it
as possible, but no later than 72 hours after a                  planned to close 68 TACs, to reduce costs and
major disaster, to evaluate the security of the                  create efficiencies while maintaining a
20
                                                                 commitment to taxpayer service. Currently,
   The Integrated Collection System is a case
 processing application that supports IRS employees
                                                                 the IRS has suspended this plan, pending
 who work delinquent taxpayer cases (i.e., taxpayers             further study.
 who have not filed tax returns or paid tax obligations).
21
   The Modernization and Information Technology
 Services organization is responsible for supporting the
 IRS on Information Technology issues, which includes
 protecting and restoring computer operations and
 locating all computers after a disaster.




                                                            October 1, 2005 through March 31, 2006                  15
     TIGTA Semiannual Report to Congress



     Assessment of TAC Closure Model                          To determine which TACs to close, the IRS
     One of the IRS’ key strategic goals is to                and an independent contractor used an
     improve taxpayer service. To achieve this                industry-standard software package and
     goal, the IRS is continually working to                  developed the TAC Closure Model (the
     improve service options and quality, facilitate          Model).
     participation in the tax system, and simplify
     the tax process. Helping people understand               The Model, which is criteria-based and data-
     their tax obligations and making it easier to            driven, ranked each of the IRS’ 400 TACs
     participate in the tax system is the first step          using five criteria: geography; employee
     toward improving voluntary compliance.                   costs; facilities costs; workload; and
                                                              demographics. Each criterion was assigned a
     Taxpayers have several options from which to             “weight,” with more than two-thirds of the
     choose both to fulfill their tax obligations and         weighting focused on customer
     to obtain assistance from the IRS. Taxpayers             considerations, including demographics,
     are able to file their tax returns either                geography, and workload. The remaining
     traditionally (on paper) or electronically.              one-third focused on facilities and labor costs.
     When needing IRS assistance, taxpayers have
     several options, including face-to-face service
     at the TACs, telephone service through the
     toll-free telephone numbers, and Internet
     access through the IRS Internet site,
     www.IRS.gov. The quality of each of these
     services influences a taxpayer’s ability and
     desire to voluntarily comply with tax laws.

     In May 2005, the IRS announced plans to
     close 68 of its 400 TACs nationwide. Closing
     the 68 TACs was expected to yield staffing
     and facilities cost savings of $45 million to
     $55 million. However, after the IRS’
     announcement, a law was passed delaying the              The five criteria were further subdivided into
     closure of any TACs.22                                   51 subcomponents. The Model then ranked
                                                              the TACs from highest to lowest score. The
                                                              higher the score, the higher the probability a
     The new law, enacted in November 2005,
                                                              TAC was selected for closure.
     requires the IRS to consult with stakeholder
     organizations regarding any proposed or
                                                              To further refine the identification of TACs to
     planned efforts to terminate or reduce
                                                              be closed, the IRS applied three business
     significantly any taxpayer service activity.
                                                              rules, ensuring: 1) that a significant office
                                                              presence would remain in the top 35
                                                              metropolitan areas; 2) that no state would lose
                                                              more than one-half of its TACs; and,
     22
       The Transportation, Treasury, Housing and Urban        3) that no TACs in Alaska and Hawaii would
      Development, the Judiciary, the District of Columbia,
      and Independent Agencies Appropriations Act, Pub. L.    be closed.
      No. 109-115, 119 Stat. 2396 (2006).




16        October 1, 2005 through March 31, 2006
                                             TIGTA Semiannual Report to Congress



TIGTA found that, although the structure of             Toll-Free Preparations for the 2006 Filing
the Model was sound, not all data used were             Season
accurate or the most current available, and that        In addition to the November 2005 law,
some of the data were based on estimates and            Congress further defined a reduction of
projections instead of actual data currently            taxpayer service to include limiting available
available.                                              hours of telephone taxpayer assistance below
                                                        the levels in existence during the month of
TIGTA’s testing raised the possibility that             October 2005.23 For the 2005 Filing Season,
some TACs had been incorrectly identified to            the IRS devoted 8,200 Full-Time
be closed or remain open. Results showed                Equivalents24 to answer the various Customer
sufficient discrepancies and raised concerns            Account Services function toll-free telephone
about using the Model results to select which           lines. Taxpayers called these lines
TACs to close.                                          approximately 41.8 million times during that
                                                        time period. Of these, 16.8 million were made
In addition, data discrepancies affected the            to the toll-free telephone number (used for tax
IRS’ ability to accurately determine cost               law or account-related questions).
savings. The IRS might have overselected or
underselected the number of TACs that
needed to be closed to reach the targeted
savings of $45 million to $55 million.

TIGTA recommended that the IRS ensure that
data used in the Model or any decision-
making tool be accurate and reliable and have
been validated. In addition, the Model or any
decision-making tool should include data to
identify customer characteristics and capture
customer input to effectively measure the
impact any results might have on taxpayer
service and compliance.

IRS management agreed that data reliability is          The Customer Account Services function
an issue that must be addressed. Management             appeared to have had an effective planning
also agreed in principle with the                       process for the 2006 Filing Season, which, if
recommendations and is taking corrective                properly implemented, would help ensure that
action. However, IRS management expressed
concern that measuring the effect of taxpayer
services on compliance is a difficult task that         23
                                                           Department of Defense Appropriations Act,
it has been unable to accomplish reliably since          Pub. L. No. 109-148, 119 Stat. 2680 (2006).
                                                        24
the inception of taxpayer service programs in              A Full-Time Equivalent is a measure of labor hours in which
                                                         1 Full-Time Equivalent is equal to 8 hours multiplied by the
the 1940s.                                               number of compensable days in a particular fiscal year. This
Report Reference No. 2006-40-061                         usually equates to 1 person working 1 year, but can equate to
                                                         2 people working 1/2 of a year each, 2 people working part
                                                         time for a full year, 3 people working 1/3 of a year each, etc.
                                                         For FY 2006, 1 Full-Time Equivalent is equal to 2,080 staff
                                                         hours.




                                                   October 1, 2005 through March 31, 2006                            17
     TIGTA Semiannual Report to Congress



     taxpayers calling for assistance would receive    For the IRS, improper and erroneous
     effective customer service.                       payments are generally associated with
                                                       erroneous refunds and filing fraud issues as
     Nevertheless, the 2006 Filing Season could        well as vendor or contractor payments. Some
     present unique challenges. TIGTA believes         tax credits, such as the Earned Income Tax
     more taxpayers than the IRS estimated could       Credit (EITC) provide opportunities for abuse
     call the Special Services Applications (used      in income tax claims.
     for disaster-related issues). In addition, the
     IRS had planned to reduce toll-free telephone     In Tax Year (TY) 2003, the IRS reported that
     hours of operation in FY 2006. However, as        approximately 21.7 million taxpayers received
     of the time of this review, the IRS was still     EITC totaling $38.1 billion. The IRS estimated
     determining whether it would make this            that between 27 percent and 32 percent of the
     reduction and when the new hours would take       $31 billion in EITC claimed on TY 1999 returns
     effect.                                           should not have been paid.

     Although TIGTA made no recommendations            Multiple Uses of Taxpayer Identification
     as a result of this review, due to the concerns   Numbers
     expressed by Congress about the IRS reducing
     operating hours for the toll-free telephone       When a taxpayer identification number is used
     lines, TIGTA is continuing to evaluate the        more than once per year, it creates the
     IRS’ plans to reduce these operating hours.       opportunity for taxpayers to receive tax
     Report Reference No. 2006-40-053                  benefits to which they are not entitled. To
                                                       determine whether the IRS has an effective
                                                       process to detect and deter multiple uses of
                                                       taxpayer identification numbers to obtain
     Erroneous and Improper
                                                       improper tax benefits, TIGTA analyzed two
     Payments                                          types of cases on the Duplicate Taxpayer
                                                       Identification Number Use (DUPTIN)
     An improper payment is any payment that           database. This database is used to determine
     should not have been made or that was made        the total number of identification numbers that
     in an incorrect amount under a statutory,         were used more than once in a given year, the
     contractual, administrative, or other legally     number of times each identification number
     applicable requirement.                           was used, and how each identification number
                                                       was used.
        According to the OMB, Federal agencies
                                                       While the IRS has implemented strong
        make more than $2 trillion in payments to
        individuals and a variety of other entities    controls on electronically filed tax returns to
        each year. By strengthening financial          prevent taxpayers from receiving improper
        management controls so that Federal            benefits, it can improve its processes when
        agencies can better detect and prevent         dealing with paper tax returns. Specifically,
        improper payments, the Federal
                                                       the IRS can capitalize on existing paper return
        Government can better ensure that taxpayer
        dollars are spent wisely and efficiently.      processes to prevent additional taxpayers who
                                                       improperly use an identification number from
                                                       receiving tax benefits to which they are not
                                                       entitled.



18        October 1, 2005 through March 31, 2006
                                             TIGTA Semiannual Report to Congress



Expansion of some current programs will                 In one audit report, the DCAA questioned
increase the IRS’ opportunities to educate              $11.8 million in labor costs directly related to
taxpayers and tax preparers on the correct way          IRS contracts. The DCAA reported that the
to use an identification number and to reduce           contractor’s consulting costs do not provide
the amount of improper tax benefits received            the Federal Government with the labor rates
by taxpayers. The IRS can also improve the              provided to the contractor’s best customers.
reliability of the information in the DUPTIN
database.                                               The issue is continuing to be evaluated.
                                                        However, until it is resolved, the contractor’s
In its November 2005 audit, TIGTA                       consulting labor costs will be questioned, per
recommended that the IRS lead a                         the provisions of the Federal Acquisition
collaborative effort to identify a workable             Regulation.
solution to resolve cases of multiple use of            Report Reference No. 2006-1C-003
identification numbers and evaluate the IRS’            (Weblink not available for this audit report)

education strategy for taxpayers and tax                In another report, TIGTA analyzed
preparers on the proper use of an identification        39 DCAA reports issued between
number.                                                 September 2000 and January 2005, relating
                                                        to one systems modernization contractor,
TIGTA also recommended that the IRS re-                 and identified 25 reports with issues that
emphasize procedures to remove all invalid              affected (e.g., questionable costs) or could
and incorrect identification numbers from the           affect (e.g., accounting system deficiencies)
DUPTIN database once they have been                     the contractor’s billing accuracy, thereby
corrected. IRS management agreed with the               increasing the IRS’ risk of making
recommendations and is taking corrective                improper payments.
action.
Report Reference No. 2006-40-007 (Limited               The contractor’s system deficiencies cited
Official Use)                                           by the DCAA included the potential for
                                                        overstated and unsupported direct labor,
Contractor Billing                                      indirect, and other direct costs, and
                                                        ineffective control over the accumulation,
Contract expenditures represent a significant           allocation, and recording of costs incurred
outlay of IRS funds. As of October 2005, the            in the performance of Federal Government
IRS was responsible for administering                   contracts.
553 contracts with a total systems life value
of $28.2 billion. In an effort to monitor IRS           Recent DCAA reports indicate that the
contracts for erroneous payments, TIGTA                 contractor is making progress in addressing
performs reviews of select vendor invoices              previously reported system inadequacies.
and has an arrangement with the Defense                 However, despite these recent results,
Contract Audit Agency (DCAA) for                        TIGTA believes that significant risk still
additional audit support. During this six-              remains for the IRS on this contract. As a
month period, TIGTA, with the assistance of             result, TIGTA will continue to conduct
the DCAA, issued 19 contract-related audit              voucher audits of the contractor in an effort
reports that identified approximately                   to substantiate reported contract costs and
$11.8 million in questionable costs.                    ensure that the vouchers are accurate,




                                                   October 1, 2005 through March 31, 2006              19
     TIGTA Semiannual Report to Congress



     supported, and allowable. TIGTA believes          55 eligible practitioners who had been
     that the IRS should continue to participate       convicted of serious criminal offenses,
     and fund DCAA planned audit activities of         including income tax evasion, conspiracy to
     the contractor to ensure that system              obstruct or defraud the IRS, or preparation of
     deficiencies are identified and corrected.        fraudulent tax returns during CYs 2002-2004.
     Report Reference No. 2006-10-008 (Limited
     Official Use)                                     The IRS has an oversight role to ensure that
                                                       licensed tax practitioners who practice before
     TIGTA also issued two audit reports involving     the IRS adhere to standards of conduct and
     its analysis of invoices related to time-and-     professionalism.25 Although the IRS has
     materials contracts. In one instance, TIGTA       increased its efforts by enforcing
     reported that the IRS’ voucher verification       320 disciplinary actions during FY 2005, there
     process was incomplete due to the lack of         are still a significant number of licensed tax
     review of contractor-provided detailed support    practitioners eligible to practice before the
     for labor hour charges or travel and other        IRS whose conduct appears to warrant
     direct costs.                                     disciplinary action. Licensed tax practitioners
                                                       who engage in misconduct may not be well
     TIGTA’s review of a contractor that provided      equipped to provide tax advice and services to
     the IRS with support services on a project to     taxpayers and they could undermine public
     reduce taxpayer burden resulted in the            confidence in these professionals.
     identification of possible questionable charges
     of $1,937.61. This amount included                In January 2001, TIGTA reported that the IRS
     unallowable and unsupported travel charges of     lacked the necessary information to assess or
     $1,256.36, and unsupported other direct costs     manage the resources used for the licensed tax
     of $681.25.                                       practitioner disciplinary program.26 TIGTA’s
                                                       March 2006 audit found that these problems
     IRS management agreed with the findings           still exist.
     and, working with the contractor, was able to
     identify adequate supporting documentation in     In addition, TIGTA was not able to reconcile
     the amount of $1,433.29. The contractor           the information on the case management
     agreed to reimburse the Federal Government        system with source documents because the
     the remaining balance of $504.32.                 IRS does not account for all case referrals
     Report Reference Nos. 2006-10-027 and
     2006-10-060                                       25
                                                          Department of the Treasury Circular No. 230,
                                                        Regulations Governing the Practice of Attorneys, Certified
                                                        Public Accountants, Enrolled Agents, Enrolled Actuaries,
     Office of Professional Responsibility              and Appraisers before the Internal Revenue Service,
     TIGTA estimated that 22,500 of the                 contains the standards of conduct and professionalism for
                                                        licensed tax practitioners and authorizes the Department
     407,000 licensed tax practitioners eligible to     of the Treasury to institute disciplinary proceedings
     practice before the IRS were not compliant         against tax practitioners whose conduct violates these
     with their own tax obligations. In addition,       regulations. The Office of Professional Responsibility
                                                        within the IRS conducts this oversight role.
     516 eligible practitioners had a revoked,         26
                                                          Improved Case Monitoring and Taxpayer Awareness
     disbarred, resigned, or surrendered State          Activities Can Enhance the Effectiveness of the Tax
     license during Calendar Years (CY) 2002-           Practitioner Disciplinary Proceedings Program
                                                        (Reference Number 2001-10-027, dated January
     2004. Furthermore, TIGTA identified                2001).




20        October 1, 2005 through March 31, 2006
                                             TIGTA Semiannual Report to Congress



received, does not maintain source                      given the size and maturity of the practitioner
documentation for some case referrals, and              disciplinary program.
does not have written procedures to ensure
consistent processing of case referrals.                TIGTA is elevating its disagreement related to
                                                        these two recommendations to the Department
To further complicate matters, some case                of the Treasury for resolution.
referrals were inappropriately destroyed in             Report Reference No. 2006-10-066
October 2004. As such, the IRS’ ability to
perform analyses to identify potential areas for        Convenience Check Program
emphasis or improvement is very limited.
                                                        The IRS’ Convenience Check Processing
TIGTA recommended that the IRS develop a                Guide requires Lien Imprest Fund cashiers to
systematic method to identify licensed tax              reconcile their Citibank statements with their
practitioners who are eligible to practice but          check register on a monthly basis. The cashier
are not compliant with their own tax                    is to submit the reconciliation statement for
obligations. In addition, the IRS should work           review. However, the Guide does not require
with other law enforcement agencies and State           the submission of any supporting source
licensing authorities to improve the exchange           documentation with the monthly statement
of information for possible IRS disciplinary            reconciliation. TIGTA’s November 2005
action.                                                 audit report found that the IRS may more
                                                        readily identify suspect checks if the cashier is
Furthermore, the IRS should implement the               required to submit supporting source
recommendations of the prior TIGTA review               documentation. Requiring supporting
and obtain approval for any needed changes to           documentation may also deter dishonest
its record retention requirements, develop              employees from preparing unauthorized
procedures to better define what cases will be          checks.
recorded on the case management system, and
establish controls and analytical procedures to         TIGTA has recommended that the IRS revise the
increase the reliability of the system.                 Convenience Check Program procedures to
                                                        require that Approving Officials receive and
In general, IRS management agreed with the              review supporting source documentation during
recommendations. However, IRS                           the monthly bank statement reconciliations. IRS
management believes that it is doing all that           management agreed with this recommendation.
can reasonably be done to collect
comprehensive conviction information from               The success of another IRS program, the
law enforcement agencies, and it must rely on           Volunteer Return Preparation Program (VRPP),
law enforcement agencies to identify these              is dependent upon the reputation it creates in the
cases.                                                  public forum. Taxpayer confidence in the
                                                        program will decrease if volunteer misdeeds are
The IRS also stated that it will not implement          brought to light in the media.
the recommendations from TIGTA’s prior
report because it does not agree that annual            As the IRS moves away from return preparation,
workload and staffing analysis is productive,           it needs to take action to ensure that VRPP
                                                        participants are adequately cautioned about
                                                        misusing government computers and accepting



                                                   October 1, 2005 through March 31, 2006                    21
     TIGTA Semiannual Report to Congress



     payment for volunteer activities. Current VRPP           In its March 2006 audit report, TIGTA
     training materials provide minimal warnings on           recommended that the IRS request an opinion
     accepting payment for volunteer activities, but do       from its Office of Chief Counsel regarding
     not adequately address the misuse of government          whether the length of the grace period should
     computers.                                               be determined by the additional tax
                                                              assessment amount or the total tax module
     TIGTA has recommended that the IRS enhance               balance amount, and change computer
     training materials and information provided to           programming, if warranted.
     VRPP participants, reminding them that
     government computers should not be used for              IRS management agreed with the
     personal business and that payments should not           recommendation and will take corrective
     be accepted for preparing tax returns. IRS               action. However, to date, a formal opinion
     management agreed with this recommendation.              from the IRS’ Office of Chief Counsel
     Report Reference No. 2006-40-005 (Limited                regarding this issue has not been requested.
     Official Use)                                            Report Reference No. 2006-30-057


     Taxpayer Protection and                                  Processing Returns and
     Rights                                                   Implementing Tax Law
                                                              Changes During the Tax Filing
     The IRS continues to dedicate significant                Season
     resources and attention to implementing the
     taxpayer rights provisions of RRA 98.                    Overall, the IRS had a successful 2005 Filing
                                                              Season.28 It completed processing of returns
     Failure to Pay Penalty Grace Period                      on schedule and timely issued refunds within
     A provision of the Taxpayer Bill of Rights27             the required 45 days of the April 15, 2005, due
     increased the period of time that taxpayers are          date. Through May 27, 2005, the IRS had
     given to pay an additional tax assessment                processed over 117.5 million individual
     before the IRS could assess the Failure to Pay           income tax returns, which included
     (FTP) tax penalty. The law allows taxpayers              66.6 million returns processed electronically.
     21 calendar days from the date of a notice to            This was an increase of nearly 11 percent over
     pay additional tax assessments of less than              the same time last year, and it was the first
     $100,000, and 10 business days from the date             year in which more than one-half of all
     of a notice to pay additional tax assessments            taxpayers filed an electronic return.
     of $100,000 or more, without incurring any
     penalty. In contrast, IRS computers are                  For the 2005 Filing Season, most of the key
     programmed to use the total amount of tax,               tax law changes were correctly implemented.
     penalty, and interest the taxpayer owes on               The IRS had also effectively implemented
     their tax module to compute the grace period             recommendations to address conditions
     rather than only the additional tax assessment           reported during TIGTA’s 2004 Filing Season
     amount.                                                  review. However, some tax law changes were
                                                              28
                                                                The 2005 Filing Season represents the period during
     27
       Pub. L. No. 104-168, 110 Stat. 1452 (1996) (codified    which tax returns were filed for the calendar year
      as amended in scattered sections of 26 U.S.C.)           ending December 31, 2004.




22         October 1, 2005 through March 31, 2006
                                            TIGTA Semiannual Report to Congress



not effectively implemented during the 2005            TIGTA has recommended several actions to
Filing Season. Specifically:                           address these issues, including changes to
                                                       error correction procedures, implementation of
•   The election to include nontaxable combat          a computer check to identify questionable
      pay as earned income reduces the Earned          large-dollar entries, and various changes to tax
      Income Tax Credit for some military              forms, instructions, and publications to assist
      taxpayers;                                       taxpayers in applying the tax law correctly and
•   The new sales tax deduction is not                 in a manner most beneficial to them. IRS
      benefiting all eligible taxpayers;               management agreed with the
•   Questionable large-dollar amounts on tax           recommendations and is taking corrective
      returns are causing erroneous credits and        actions.
      understatements of tax liabilities;              Report Reference No. 2006-40-024
•   Some taxpayers are receiving erroneous
      education credits; and
•   Single taxpayers continue to claim a
      questionable dual benefit by taking both
      the tuition and fees deduction and the
      education credit.




                                                  October 1, 2005 through March 31, 2006              23
As I went about with my father when he
collected taxes, I knew that when taxes
were laid some one had to work to earn
the money to pay them.


                         ~Calvin Coolidge
                                            TIGTA Semiannual Report to Congress



                                                 Protect the
                                                 Integrity of
                                          Tax Administration

T    he Office of Investigations (OI)
     administers investigative programs that
protect the integrity of the IRS and detect
                                                   three areas. TIGTA’s statutory
                                                   responsibility includes not only the detection
                                                   of fraud, waste, and abuse within the IRS,
and prevent fraud and other misconduct             but also the protection of the integrity of tax
within IRS programs, the IRS Oversight             administration. OI ensures that the nation’s
Board, and IRS Office of Chief Counsel.            tax administration system operates with the
OI’s mission is completed through proactive        highest standards of fairness and
and reactive investigative programs. OI            trustworthiness.
investigates allegations in three core
functional areas: employee integrity,              OI operates a Complaint Management Team
external attempts to corrupt tax                   (CMT) that receives complaints through a
administration, and employee and                   toll-free hotline, a central post office box,
infrastructure security. OI’s performance          and an e-mail address. CMT processes
model (see page 26) emphasizes                     allegations of fraud, waste, abuse, and
high-quality investigations relative to these      misconduct involving IRS employees and
                                                   programs. It is a centralized clearinghouse
   TIGTA’S TECHINCAL SUPPORT DIVISIONS             for processing and tracking allegations of
 OI’s proactive and reactive investigative         wrongdoing.
 challenges enlist the support and services of
 TIGTA’s technical support divisions. The three
 divisions are: Strategic Enforcement Division     TIGTA’s Special Inquiries and Intelligence
 (SED), Forensic Science Laboratory (FSL), and     Division (SIID) is responsible for
 Technical and Firearms Support Division (TFSD).   conducting sensitive investigations
                                                   involving allegations of misconduct by
                                                   TIGTA personnel and senior IRS
                                                   management officials. Other SIID
                                                   components include:

                                                   •   the procurement fraud investigative
                                                         section, which has heightened activity
                                                         as a result of IRS’ increasing use of
                                                         contractors in support of IRS
                                                         programs; and
                                                   •   a Criminal Intelligence Program (CIP),
                                                         which protects the IRS from external
                                                         threats by individuals, anti-government
                                                         groups, and domestic terrorists.




                                            October 1, 2005 through March 31, 2006               25
     TIGTA Semiannual Report to Congress




                 TIGTA INVESTIGATIVE PERFORMANCE MODEL




      TIGTA’s Office of Investigations bases its performance measures on three
      primary areas of investigation: employee integrity, employee and infrastructure
      security, and external attempts to corrupt tax administration. Each of these
      three areas is divided into three subcategories, all designed to support the
      agency’s law enforcement goals.




26      October 1, 2005 through March 31, 2006
                                            TIGTA Semiannual Report to Congress




        Employee Integrity                         The following cases are examples of IRS
                                                   employee integrity investigations conducted
                                                   during this reporting period.
Misconduct by IRS employees and
contractors weakens the public’s trust in the
IRS and undermines the ability of the IRS
                                                     Former IRS Disclosure Officer Pleads
to implement and enforce tax laws. TIGTA             Guilty to Unauthorized Access on
promotes employee integrity by conducting            More Than 150 Occasions
proactive and reactive investigations, and
by administering an Integrity/Fraud                  A former IRS disclosure officer pled guilty in
Awareness Program to IRS employees, the              January 2006 to exceeding her authorized
                                                     access to IRS computers. She unlawfully
tax practitioner community, and the general          accessed IRS computers on more than
public. Employee conduct investigations              150 occasions, obtaining confidential
include:                                             taxpayer information for private financial
                                                     gain. Sentencing is pending.
•   unauthorized access (UNAX) to and
      disclosure of confidential taxpayer          Former IRS Employee Sentenced for
      information;                                 Unauthorized Access of Taxpayer
•   bribery;                                       Records
•   solicitation;
•   theft;                                         A former IRS employee was sentenced in
•   taxpayer abuse;                                January 2006 for unauthorized computer
•   financial fraud; and                           access. The former employee accessed
•   misuse of IRS computer systems.                private taxpayer information for no
                                                   legitimate business reason, knowing the
In addition to TIGTA’s mandate to                  access was not permitted. The former
investigate allegations of employee                employee was sentenced to 12 months
misconduct, OI conducts proactive                  probation, 75 hours of community service,
integrity initiatives designed to detect           and fined $1,000.
fraud and to identify internal control
weaknesses that may permit fraud to go             Former IRS Employee Sentenced for
undetected or unreported. UNAX and                 Unauthorized Inspection of Return
disclosure of confidential taxpayer                Information
information continue to make proactive
integrity initiatives necessary. See               A former IRS employee was sentenced in
page 28 for detailed information about             December 2005 for unauthorized inspection
TIGTA’s UNAX Program.                              of return information. The IRS employee
                                                   willfully inspected a taxpayer’s return
During the reporting period, TIGTA                 information without authorization. She was
completed 942 employee integrity                   sentenced to two years probation and fined
investigations.                                    $1,000.




                                            October 1, 2005 through March 31, 2006                    27
     TIGTA Semiannual Report to Congress




            Investigative Support Provided by TIGTA’s Strategic Enforcement Division

      The Strategic Enforcement Division (SED) is the component of the Office of Investigations that
      leverages computer experience and expertise to identify electronic vulnerabilities and gather computer
      evidence to enhance TIGTA investigations. Identifying unauthorized access to taxpayer information by
      IRS employees (UNAX) continues to be one of the significant accomplishments of this group. As the
      IRS continues its modernization efforts, the potential for increased UNAX violations by IRS employees
      and others exists. SED will be challenged to maintain pace with this potential increase.

                                              SED-UNAX Program

      What is UNAX? – UNAX is the term that refers to the Unauthorized Access to taxpayer information by
      IRS employees, as well as other Federal and State employees and private contractors.

      What Is TIGTA’s Role? – TIGTA is responsible for the detection and investigation of UNAX violations in
      accordance with the Taxpayer Browsing Protection Act of 1997. Pursuant to Title 26, it is a criminal
      offense to willfully inspect or disclose Federal tax information without proper approval. The provisions of
      Title 18 prohibit the intentional, unauthorized or exceeding authorized access to any information stored
      on a government-owned computer.

      Why Investigate UNAX? – UNAX can lead to identity theft and undermines the trust that taxpayers
      have in the Federal tax system to safeguard confidential tax information in its custody.

      How Are UNAX Violations Found? – TIGTA uses a computer-based detection program that analyzes
      access to tax accounts, and identifies those with potential UNAX issues. Cases with confirmed UNAX
      issues or any other potential criminal violations are forwarded to TIGTA special agents in the field for
      further investigation. Employees found to have committed UNAX violations are subject to Federal
      prosecution, termination of employment, or other disciplinary action.

      Is the TIGTA UNAX Program Successful? – Yes. In the last eight years, TIGTA Agents have
      investigated more than 3,700 cases of potential UNAX violations, resulting in more than 1,600 adverse
      personnel actions taken by the IRS. In addition, 126 employees have been criminally prosecuted for
      UNAX violations.

      Have UNAX Violations Decreased? – No. There has not been a noticeable decrease in the number of
      violations. Each year, TIGTA agents initiate approximately 450 UNAX investigations.

      During this six-month reporting period, the UNAX Program has:

      •   identified and analyzed 247 leads of potential unauthorized access;
      •   referred 152 criminal cases to TIGTA agents for final investigation; and
      •   resulted in 9 criminal prosecutions and 79 adverse administrative actions against IRS employees.




28        October 1, 2005 through March 31, 2006
                                          TIGTA Semiannual Report to Congress



IRS Employee Charged with                         supervised release, and ordered to pay more
Unauthorized Computer Access for                  than $34,000 in restitution for bank fraud.
Commercial Advantage and Private Gain             The individual provided an IRS employee
                                                  with counterfeit checks and fraudulent
An IRS employee was charged in October            identification to negotiate the checks. At
2005 with intentionally accessing an IRS          the individual’s direction, the IRS
computer without authorization and                employee negotiated or attempted to
exceeding her authorized access for               negotiate checks totaling approximately
commercial advantage and private financial        $42,250 at different banks. After cashing
gain. Allegedly employed by a company             the counterfeit checks, the employee
that provides tax preparation services, she       returned the money to the individual, who
accessed accounts on an IRS computer              then divided it among the participants in the
database of 21 taxpayers whose returns            scheme. TIGTA’s Forensic Science
were prepared by the company.                     Laboratory was instrumental in the
                                                  investigation, identifying the individual’s
Former IRS Employee Sentenced to Five             fingerprint on a check and providing expert
Years Probation and Ordered to Pay                testimony at his trial.
Restitution of More Than $153,000
                                                  Former IRS Manager Charged with
In January 2006, an IRS employee was              Stealing More Than $22,000 in Treasury
sentenced to five years probation, the first      Refund Checks
year in home detention, and was ordered to
pay restitution of more than $153,000 for         A former IRS manager was charged in
theft of government funds. While working          December 2005 with theft of Federal funds,
for the IRS, the employee received                unauthorized access of a government
approximately $153,000 in Social Security         computer, and theft in connection with
disability benefits to which he was not           health care. According to the indictment,
entitled. He falsely reported to the Social       while working in the Refund Inquiry Unit,
Security Administration that he had not           the individual allegedly stole seven
worked since becoming disabled. Through           Treasury refund checks totaling more than
its proactive work, TIGTA’s Strategic             $22,000 and gave them to a co-conspirator.
Enforcement Division identified the               She also allegedly made nine unauthorized
integrity breach.                                 accesses of taxpayer information on an IRS
                                                  computer system. Additionally, she
Individual Sentenced to Two Years in              requested that her Federal Employees
Prison for Bank Fraud Involving IRS               Health Benefits Program insurance carrier
Employee                                          add the co-conspirator as her spouse, when
                                                  in fact he was not her spouse.
An individual was sentenced in December
2005 to two years in prison, five years




                                           October 1, 2005 through March 31, 2006             29
     TIGTA Semiannual Report to Congress



      TIGTA’s Technical Support Division
                                                     Individual Sentenced for Theft of
       Manages U.S. Treasury-wide Land               Government Checks and Money Orders
            Mobile Radio Program
                                                     An individual was sentenced in February
      The selection of TIGTA as the manager of       2006 for receiving and converting, for his
      the Department of the Treasury’s Land          own use, checks and money orders
      Mobile Radio Program was the result of our     originally payable to the IRS. The
      communication technologies, our favorable
      reputation in the law enforcement
                                                     individual received the checks and money
      community, and our longstanding expertise      orders, totaling approximately $7,363, from
      with the Integrated Wireless Network           an IRS employee and deposited them into
      (IWN).                                         his bank account. The individual knew the
                                                     checks and money orders were stolen and
      The IWN is a government-wide initiative for
      interoperability among the Departments of
                                                     that neither he nor the IRS employee was
      the Treasury, Justice, and Homeland            entitled to the proceeds. He was sentenced
      Security. The activity includes continuation   to three years probation, three months home
      of “Sector” support with U.S. Immigration      detention, and was ordered to pay
      and Customs Enforcement.                       restitution of more than $7,000 to the IRS.
      TIGTA’s responsibilities include:
                                                     IRS Employee Guilty of Filing False
       •    Managing the tactical wireless           Claim for Hurricane Katrina Disaster
             communications of the Treasury’s        Assistance
             Wireless Programs Office;
       •    Representing the Treasury at IWN
                                                     In February 2006, an IRS Revenue Officer
             meetings;
       •    Representing the Treasury at the         pleaded guilty to filing a false claim with
             Interdepartmental Radio Advisory        the Federal Emergency Management
             Committee as a permanent member         Agency. The IRS employee filed an
             for Federal radio spectrum              application for Hurricane Katrina disaster
             allocation;                             assistance benefits stating that his primary
       •    Representing the Treasury in Project
             SafeCom, a program designed to
                                                     residence was in New Orleans when he
             promote interoperability among          knew it was not. Based on his application,
             Federal, State, and local               he received $2,000 in expedited disaster
             government safety forces; and           assistance.
       •    Coordinating Treasury resources and
             conducting strategic planning for the
             Continuity of Operations Plan.




30         October 1, 2005 through March 31, 2006
                                            TIGTA Semiannual Report to Congress



Employee and Infrastructure
         Security                                            TIGTA’s Forensic Science
                                                            Laboratory Provides Expert
TIGTA’s statutory responsibilities include                 Forensic Analysis of Evidence
investigating activities involving threats to
IRS personnel and facilities.                             The Forensic Science Laboratory (FSL)
                                                          provides timely crime laboratory services
                                                          in direct support of TIGTA investigations
TIGTA’s Criminal Intelligence Program                     and ensures that OI receives responsive
(CIP) protects the IRS from external threats              and quality crime laboratory services.
that come from a variety of sources,
including domestic terrorists and anti-                   FSL’s services include:
government groups. The CIP is designed to                  • Handwriting/hand printing analysis;
                                                           • Document identification and
identify and neutralize threats, assaults, and                  analysis;
violent acts targeted against IRS facilities,              • Printing and paper analysis;
employees, and operations. TIGTA works                     • Latent print processing;
with other Federal, State, and local law                   • Fingerprint database searches;
enforcement agencies that have similar                     • Digital image processing/visual
goals. For example, TIGTA participates in                       information; and
                                                           • Expert witness testimony.
the FBI Joint Terrorism Task Forces
throughout the country, and assists the IRS               FSL provides:
in developing and enhancing its employee                   • Guidance on proper evidence
safety and infrastructure security programs.                    collection and handling methods;
                                                           • Forensic science training;
During this reporting period, TIGTA                        • Assistance in crime scene
                                                                processing;
completed 138 investigations of threats and
                                                           • Informational bulletins related to the
assaults directed at the IRS and its                            forensic sciences; and
employees, and issued 274 advisories                       • Liaison with other forensic science
notifying IRS management of potential                           labs.
threats.
                                                          During this reporting period, the FSL
                                                          accomplished:
                                                           • 59 forensic examinations involving
The following cases are examples of IRS                         investigations of thefts of IRS
employee and infrastructure security                            refunds and tax remittances, theft
investigations conducted during this                            of government property, and
reporting period.                                               threats/harassment against IRS
                                                                employees;
Individual Sentenced for Assaulting IRS                    • Examined cases involving fraud,
                                                                counterfeit documents, stolen
Employee
                                                                checks, and government property
                                                                in excess of $3.8 million; and
An individual was sentenced in February                    • Examined more than 1,600 items of
2006 for assaulting a Federal officer,                          evidence for latent prints, digital
resulting in the infliction of bodily injury.                   images, and/or questioned
The individual used force to assault and                        document analysis.
interfere with the IRS employee while she




                                                October 1, 2005 through March 31, 2006                31
     TIGTA Semiannual Report to Congress



     was engaged in the performance of her          harassing telephone calls. According to the
     official duties. He was sentenced to           criminal complaint, the individual allegedly
     12 months and one day incarceration, three     made more than 30 harassing and
     years supervised release, 300 hours of         threatening telephone calls to an IRS office.
     community service, and fined $4,000.           During one call, the individual allegedly
                                                    apologized for attempting to assassinate
     Individual Sentenced for Threatening to        IRS employees.
     Bomb Federal Building
                                                    Individual Sentenced for Making
     In October 2005, an individual was             Threatening Telephone Calls to IRS
     sentenced to four months incarceration,
     three years supervised release, no more than   An individual was sentenced in March 2006
     four months in a community corrections         for making threatening interstate
     center, and fined $2,000 for using the mail    communications. The individual made
     to threaten and convey false information.      772 telephone calls to the IRS, 111 of
     The individual prepared and mailed a letter    which were made on one day. The calls
     to the U.S. Immigration Service that falsely   and voice messages left by the individual
     claimed three bombs were scheduled to          were harassing and threatening to the IRS
     explode, one of them at the Federal            employees who received them and caused
     building to which the letter was sent.         serious disruption of Federal Government
                                                    business. The individual was sentenced to
     Individual Arrested for Making                 54 months in prison, three years supervised
     Harassing and Threatening Telephone            release, and was ordered to participate in
     Calls to IRS                                   substance abuse and mental health
                                                    treatment programs as special conditions of
     An individual was arrested in December         his supervised release.
     2005 for threatening communications and




32        October 1, 2005 through March 31, 2006
                                                 TIGTA Semiannual Report to Congress



External Attempts to Corrupt                            corporation mailed the signed checks back
     Tax Administration                                 to his business. Instead of paying the IRS
                                                        by depositing them into a United States
                                                        trust account, he defrauded the corporation
External attempts to corrupt tax
                                                        of approximately $44,246 by depositing
administration inhibit the ability of the IRS
                                                        13 of the tax checks into his business bank
to collect revenue and undermine the
                                                        account.
public’s confidence in fair and effective tax
administration. TIGTA is committed to
                                                        Individual Sentenced to Five Years
investigating external attempts to corrupt or
                                                        Probation for Impersonating IRS Agent
interfere with the administration of Internal
Revenue laws. External efforts to impede
                                                        An individual was sentenced in January
these laws include:
                                                        2006 for false personation. The individual
                                                        was sentenced to five years probation with
•   impersonation of IRS officials;
                                                        six months in a community corrections
•   fraud by tax preparers;                             facility, and was ordered to pay $10,000 in
•   theft of IRS refunds;                               restitution. The individual had obtained
•   bribery; and                                        approximately $10,000 on behalf of the
•   other criminal activities.                          United States by pretending to be an IRS
                                                        agent.
During this reporting period, TIGTA
conducted 77 investigations of attempts to              Individual Arrested for Attempting to
manipulate or corrupt IRS systems and                   Interfere with Administration of Internal
252 investigations into fraud and other IRS-            Revenue Laws
related criminal activities.
                                                        In February 2006, an individual was
                                                        arrested for fraud and false statements, and
The following cases are examples of                     attempting to interfere with the
investigations of external attempts to corrupt          administration of Internal Revenue laws.
tax administration conducted during this
                                                        According to the indictment, the individual
reporting period.
                                                        allegedly filed 29 fraudulent Forms 8300
                                                        (Report of Cash Payments Over $10,000
Individual Sentenced for Embezzling
                                                        Received in a Trade or Business) with the
More Than $44,000 in Tax Payments
                                                        IRS. On the forms, the individual allegedly
An individual was sentenced in December                 claimed to have engaged in suspicious cash
2005 to 30 months in prison, three years                transactions more than $1 million with
supervised release and was ordered to pay               various individuals, including public
more than $44,000 in restitution for mail               officials and others with whom she was
fraud. As the majority owner of a tax                   involved in disputes or litigation. She
service business, the individual prepared               allegedly filed the false Forms 8300 to
tax deposit checks and IRS coupons for a                harass, intimidate, and create legal
corporation. He forwarded the checks to                 problems for the individuals.
the corporation for signature and the




                                                 October 1, 2005 through March 31, 2006               33
     TIGTA Semiannual Report to Congress



     Tax Practitioner Sentenced for Falsifying      to be an attorney and a member in good
     IRS Form 2848                                  standing of the New York State bar. The
                                                    individual also aided and assisted in the
     A tax practitioner was sentenced for false     preparation of 11 false income tax returns
     statements in January 2006. The individual     and made five false claims against the
     submitted a Form 2848 (Power of Attorney       United States.
     and Declaration of Representative) to the
     IRS. He represented that he was a Certified    Individual Sentenced for Impersonating
     Public Accountant (CPA), which entitled        IRS Employee to Obtain Personal
     him to represent taxpayers before the IRS,     Information
     when he knew that he was not a licensed
     CPA. He was sentenced to two years             In October 2005, an individual was
     probation with the conditions that he          sentenced to five years probation, was
     complete one day per month of community        ordered to pay restitution of over
     service and provide his clients with a form    $2,000, and participate in substance abuse
     stating that he is unable to serve as a        treatment and mental health counseling
     representative before the IRS. He was also     programs. The individual falsely stated that
     fined $1,500.                                  she was an IRS employee conducting a
                                                    survey and fraudulently obtained the names
     Individual Found Guilty of Submitting          and dates of birth of other persons.
     False IRS Forms
                                                    Individual Indicted for Bribing IRS
     In December 2005, an individual was found      Employee
     guilty of making false statements on IRS
     forms, preparing and submitting false          An individual was indicted in March 2006
     income tax returns, and making false claims    for bribery of a public official. According
     against the United States. The individual      to the indictment, the individual allegedly
     submitted four Forms 2848 (Power of            gave an IRS employee $1,500 for a “no
     Attorney and Declaration of                    change” letter concerning her sister’s
     Representative) to the IRS, falsely claiming   2002 individual income tax return.




34        October 1, 2005 through March 31, 2006
                                     TIGTA Semiannual Report to Congress




                                 Awards and Special
                                      Achievements
 TIGTA Special Agent Receives Award from United States
                    Attorney’s Office

On December 1, 2005, TIGTA Special Agent Keith Caplan was recognized by the United
States Attorney’s office, Eastern District of Pennsylvania, for his dedication and
investigative skills in a bank fraud case involving an IRS employee.




                            Special Agent Keith Caplan (center)


Former IRS Revenue Officer Receives Accolades from TIGTA

On March 6, 2006, former IRS Revenue Officer Larry E. Hassard received a Letter of
Commendation from TIGTA for his unselfish actions and hard work in the successful
prosecution of a taxpayer and co-conspirator in a bribery investigation.




                          Larry E. Hassard with bribe money



                                     October 1, 2005 through March 31, 2006          35
     TIGTA Semiannual Report to Congress




         TIGTA’s Hoteling Program Receives Honorable Mention




                       From left to right: Steven Perry, GSA Administrator;
                       J Russell George, TIGTA IG; Jennifer Donnan, Assistant
                       Director, Client Services; Donna Leach, HR Specialist; and
                       Stan Kaczmarczyk, GSA Deputy Associate Administrator for
                       Real Property Management. Other TIGTA team members
                       (not pictured) include Nancy Nakamura, Emma Price,
                       Tom Hawkins, Troy Patterson and Jim O’Hara (Office of Audit);
                       Tim Dobbs and Tom Black (Office of Information Technology);
                       and Corinne O’Connor, retired Real Estate Specialist.


       TIGTA’s Hoteling program received Honorable Mention in the GSA 2005 Achievement
       Award for Real Property Innovation. Twelve Federal Agencies submitted entries for the
       award recognizing ideas and methods of improving asset management within the Federal
       Government. Inspector General J. Russell George accepted the award for TIGTA.




36   October 1, 2005 through March 31, 2006
                                           TIGTA Semiannual Report to Congress




                                                       Congressional
                                                          Testimony

    On October 26, 2005, TIGTA’s Inspector General, J. Russell George, provided testimony
before the Senate Homeland Security and Governmental Affairs’ Subcommittee on Federal
Financial Management, Government Information, and International Security for its hearing
entitled, “Uncollected Taxes: Can We Reduce the $300 Billion Tax Gap?” Mr. George’s
testimony included recommendations on the need to simplify the tax code in order to help close
the tax gap. In addition, he recommended that the IRS work with Congress to develop
legislation requiring withholding on non-employee compensation, and that the IRS continue to
address the cost increases and schedule delays that have been incurred as it seeks to modernize
IRS computer systems.



    On March 29, 2006, Inspector General George appeared before the House Committee on
Appropriations, Subcommittee on Transportation, Treasury, and Housing and Urban
Development, the Judiciary, District of Columbia, and Independent Agencies. This hearing
addressed the IRS’ Fiscal Year 2007 Budget Request. Mr. George spoke about the major
challenges facing the IRS. He stated that maximizing compliance and taxpayer services with
finite resources is perhaps the most difficult challenge facing the IRS. He also stated that the
IRS faces challenges in meeting several taxpayer service goals and expectations, as well as in
determining and providing taxpayers the levels and types of service they want or need.



               “Providing quality customer service to the taxpayer is not
               only a primary goal of the IRS, but it is also one of its major
               management challenges. The Commissioner has frequently
               stated that service combined with enforcement will result in
               compliance. Quality taxpayer service includes helping the
               taxpaying public understand their tax obligations while
               making it easier to participate in the tax system.”

                                            J. Russell George, March 29, 2006




                                           October 1, 2005 through March 31, 2006                  37
Taxes, after all, are dues that we pay
for the privileges of membership in an
organized society.


                 ~Franklin D. Roosevelt
                                                                 TIGTA Semiannual Report to Congress




                                                                             Audit
                                                               Statistical Reports

                                                                    Reports with Questioned Costs

TIGTA issued two audit reports with questioned costs during this semiannual reporting period.1
The phrase “questioned cost” means a cost that is questioned because of:
•       an alleged violation of a provision of a law, regulation, contract, or other requirement
          governing the expenditure of funds;
•       a finding, at the time of the audit, that such cost is not supported by adequate
          documentation (an unsupported cost); or
•       a finding that expenditure of funds for the intended purpose is unnecessary or unreasonable.
The phrase “disallowed cost” means a questioned cost that management, in a management
decision, has sustained or agreed should not be charged to the government.


                                                                                             Reports With Questioned Costs
                                                                                          Questioned Costs   Unsupported Costs
                      Report Category                                 Number               (in thousands)      (in thousands)

1. Reports with no management decision at the
   beginning of the reporting period                                       7                   $3,782             $3,280
2. Reports issued during the reporting period                              2                  $11,839                $2
3. Subtotals (Item 1 plus Item 2)                                          9                  $15,621             $3,282
4. Reports for which a management decision
   was made during the reporting period2
     a. Value of disallowed costs                                          1                      $1                 $1
         b. Value of costs not disallowed                                  1                      $1                 $1
5. Reports with no management decision at the
   end of the reporting period (Item 3 minus Item 4)                       8                  $15,619             $3,280
6. Reports with no management decision
   within 6 months of issuance                                             7                   $3,782             $3,280
1
    See Appendix II for identification of audit reports involved.
2
    Includes one report in which IRS management disallowed part of the questioned cost.




                                                                           October 1, 2005 through March 31, 2006                39
         TIGTA Semiannual Report to Congress




                                                         Reports with Recommendations That
                                                                  Funds Be Put to Better Use



     TIGTA issued one report with recommendations that funds be put to better use during this
     semiannual reporting period.1 The phrase “recommendation that funds be put to better use” means a
     recommendation that funds could be used more efficiently if management took actions to
     implement and complete the recommendation, including:
     •       reductions in outlays;
     •       deobligations of funds from programs or operations;
     •       costs not incurred by implementing recommended improvements related to operations;
     •       avoidance of unnecessary expenditures noted in pre-award reviews of contract agreements;
     •       preventing erroneous payment of the following refundable credits: Earned Income Tax Credit
               and Child Tax Credit; and
     •       any other savings that are specifically identified.
     The phrase “management decision” means the evaluation by management of the findings and
     recommendations included in an audit report, and the issuance of a final decision concerning its
     response to such findings and recommendations, including actions concluded to be necessary.


                                      Reports With Recommendations That Funds Be Put To Better Use
                                                                                                                            Amount
                                              Report Category                                                  Number   (in thousands)

     1. Reports with no management decision at the beginning of the reporting period                             1          $42,100
     2. Reports issued during the reporting period                                                               1           $6,979
     3. Subtotals (Item 1 plus Item 2)                                                                           2          $49,079
                                                                                                         2
     4. Reports for which a management decision was made during the reporting period
          a. Value of recommendations to which management agreed
                    i. Based on proposed management action                                                       2          $13,934
                   ii. Based on proposed legislative action                                                      0               $0
             b. Value of recommendations to which management did not agree                                       1          $35,145
     5. Reports with no management decision at end of the
        reporting period (Item 3 minus Item 4)                                                                   0               $0
     6. Reports with no management decision within 6 months of issuance                                          0               $0
     1
         See Appendix II for identification of audit reports involved.
     2
         Includes one report in which IRS management agreed to a portion of the value of the recommendation.




40          October 1, 2005 through March 31, 2006
                                                TIGTA Semiannual Report to Congress




                         Reports with Additional Quantifiable Impact
                                              on Tax Administration


In addition to questioned costs and funds put         (entitlements) are also included in this
to better use, the Office of Audit has                category, such as when taxpayers legitimately
identified measures that demonstrate the              assert that they overpaid their taxes.
value of audit recommendations to tax
administration and business operations. These         Taxpayer Privacy and Security: Protection
issues are of interest to IRS and Treasury            of taxpayer financial and account information
executives, Congress, and the taxpaying               (privacy). Processes and programs that
public, and are expressed in quantifiable             provide protection of tax administration,
terms to provide further insight into the value       account information, and organizational
and potential impact of the Office of Audit’s         assets (security).
products and services. Including this                 Inefficient Use of Resources: Value of
information also promotes adherence to the            efficiencies gained from recommendations to
intent and spirit of the Government                   reduce cost while maintaining or improving
Performance and Results Act (GPRA).                   the effectiveness of specific programs;
                                                      resources saved would be available for other
Definitions of these additional measures are:         IRS programs. Also, the value of internal
Increased Revenue: Assessment or                      control weaknesses that resulted in an
collection of additional taxes.                       unrecoverable expenditure of funds with no
                                                      tangible or useful benefit in return.
Revenue Protection: Proper denial of
claims for refunds, including                         Reliability of Management Information:
recommendations that prevent erroneous                Ensuring the accuracy, validity, relevance,
refunds or efforts to defraud the tax system.         and integrity of data, including the sources
                                                      of data and the applications and processing
Reduction of Burden on Taxpayers:                     thereof, used by the organization to plan,
Decreases by individuals or businesses in the         monitor, and report on its financial and
need for, frequency of, or time spent on              operational activities. This measure will
contacts, record keeping, preparation, or costs       often be expressed as an absolute value
to comply with tax laws, regulations, and IRS         (i.e., without regard to whether a number is
policies and procedures.                              positive or negative) of overstatements or
                                                      understatements of amounts recorded on the
Taxpayer Rights and Entitlements at Risk:             organization’s documents or systems.
The protection of due process rights granted
to taxpayers by law, regulation, or IRS               Protection of Resources: Safeguarding
policies and procedures. These rights most            human and capital assets, used by or in the
commonly arise when filing tax returns,               custody of the organization, from inadvertent
paying delinquent taxes, and examining the            or malicious injury, theft, destruction, loss,
accuracy of tax liabilities. The acceptance of        misuse, overpayment, or degradation.
claims for and issuance of refunds




                                                    October 1, 2005 through March 31, 2006             41
     TIGTA Semiannual Report to Congress



     The number of taxpayer accounts and dollar values shown in the following chart were derived from
     analyses of historical data, and are thus considered potential barometers of the impact of audit
     recommendations. Actual results will vary depending on the timing and extent of management’s
     implementation of the corresponding corrective actions, and the number of accounts or subsequent
     business activities impacted from the dates of implementation. Also, a report may have issues that
     impact more than one outcome measure category.
            .



                      Reports With Additional Quantifiable Impact On Tax Administration
                                                                     Number of       Number of         Dollar Value
                Outcome Measure Category
                                                                      Reports1   Taxpayer Accounts   (in thousands)

         Increased Revenue                                               0                 0                  $0

         Revenue Protection                                              2             19,103           $157,817

         Reduction of Burden on Taxpayers                                1              7,124                 $0

         Taxpayer Rights and Entitlements at Risk                        1            467,844             $1,900

         Taxpayer Privacy and Security                                   0                 0                  $0

         Inefficient Use of Resources                                    1                 0                $311

         Reliability of Management Information                           3              8,185         $17,446,000

         Protection of Resources                                         0                 0                   $0
     1
         See Appendix II for identification of audit reports involved.



         Management did not agree with the outcome measures in the following reports:
         •  Revenue Protection: Reference Number 2006-40-007.
         •  Taxpayer Burden: Reference Numbers 2006-10-066.
         The following reports contained quantifiable impacts in addition to the number of taxpayer accounts, number of
         hours, and dollar value:
         •   Taxpayer Burden: Reference Number 2006-10-066.
         •   Reliability of Management Information: Reference Number 2006-40-022.




42          October 1, 2005 through March 31, 2006
                                                                   TIGTA Semiannual Report to Congress




                                                                     Investigations
                                                                Statistical Reports

                                                                          Significant Investigative Achievements
                                                                                     October 1, 2005 – March 31, 2006

Complaints/Allegations Received by TIGTA
        Complaints against IRS Employees                                                                            2,173
        Complaints against Non-Employees                                                                            2,250

        Total Complaints/Allegations                                                                                4,423


Status of Complaints/Allegations Received by TIGTA
        Investigations Initiated                                                                                    1,701
                                       1
        In Process within TIGTA                                                                                      327
        Referred to IRS for Action                                                                                   401
        Referred to IRS for Information Only                                                                         769
                                             2
        Referred to a Non-IRS Entity                                                                                  14
        Closed with No Referral                                                                                     1,047
        Closed with All Actions Completed                                                                            164

        Total Complaints                                                                                            4,423


Investigations Opened and Closed
        Total Investigations Opened                                                                                 1,639
        Total Investigations Closed                                                                                 1,701


Financial Accomplishments
        Embezzlement/Theft Funds Recovered                                                                      $689,755
        Court Ordered Fines, Penalties and Restitution                                                        $12,142,325
        Out-of-Court Settlements                                                                                       0

        Total Financial Accomplishments                                                                       $12,832,080
1
    Complaints for which final determination had not been made at the end of the reporting period.
2
    A non-IRS entity includes other law enforcement entities or Federal agencies.

Note: The IRS made 36 referrals to TIGTA that would more appropriately be handled by the IRS, and therefore
were returned to the IRS. These are not included in the total complaints/allegations shown above.




                                                                             October 1, 2005 through March 31, 2006         43
         TIGTA Semiannual Report to Congress




                                                                                 Status of Closed Criminal Investigations
                                     1                                              Employee               Non-Employee                      Total
     Criminal Referrals
            Referred – Accepted for Prosecution                                              26                           60                        86
            Referred – Declined for Prosecution                                             311                         203                    514
            Referred – Pending Prosecutorial Decision                                        28                           56                        84

     Total Criminal Referrals                                                               365                         319                    684

     No Referral                                                                            451                         434                    885
     1
         Criminal referrals include both Federal and State dispositions.




                                                                                                                 Criminal Dispositions2
                                                                                    Employee               Non-Employee                      Total
     Guilty                                                                                 24                          68                          92
     Nolo Contendere (no contest)                                                             1                          2                          3
     Pre-trial Diversion                                                                      0                          7                          7
                                    3
     Deferred Prosecution                                                                     0                          0                          0
     Not Guilty                                                                               0                          2                          2
                      4
     Dismissed                                                                                4                          7                          11

     Total Criminal Dispositions                                                            29                          86                     115
     2
       This chart includes statistics on final criminal dispositions during the reporting period. This data may pertain to investigations referred
       criminally in prior reporting periods and do not necessarily relate to the investigations referred criminally in the Status of Closed Criminal
       Investigations table above.
     3
       Generally in a deferred prosecution, the defendant accepts responsibility for his/her actions, and complies with certain conditions imposed by
       the court. Upon defendant’s completion of the conditions, the court dismisses the case. If the defendant fails to fully comply, the court
       reinstates prosecution of the charge.
     4
       Court dismissed charges.




                                         Administrative Dispositions on Closed TIGTA Investigations5
                                                                                                                                             Total
     Removed, Terminated or Other                                                                                                              241
     Suspended/Reduction in Grade                                                                                                                   61
     Oral or Written Reprimand/Admonishment                                                                                                         92
     Closed – No Action Taken                                                                                                                  122
     Clearance Letter Issued                                                                                                                   129
     Employee Resigned Prior to Adjudication                                                                                                   106

     Total Administrative Dispositions                                                                                                         751
     5
         This chart includes statistics on final administrative dispositions during the reporting period. This data may pertain to investigations
         referred administratively in prior reporting periods and does not necessarily relate to the investigations closed in the Investigations
         Opened and Closed statistics on page 43.




44          October 1, 2005 through March 31, 2006
                                                TIGTA Semiannual Report to Congress




                                                 Appendix I
                                       Statistical Reports -
                                                      Other

                                                 Audit Reports with Significant
                                             Unimplemented Corrective Actions
The Inspector General Act of 1978 requires identification of significant recommendations described in
previous semiannual reports for which corrective actions have not been completed. The following list is
based on information from the IRS Office of Management Control’s automated tracking system maintained
by Treasury management officials.

                 IRS                           Projected     Report Title and Recommendation Summary
Reference     Management                      Completion     (F = Finding No., R = Recommendation No.,
                                Issued
 Number        Challenge                         Date                        P = Plan No.)
                 Area
2000-30-059    Tax Compliance   March 2000                 The Internal Revenue Service Can Improve the Estate Tax Collection
                  Initiatives                              Process

                                                05/15/06   F-2, R-2, P-1. Develop procedures to periodically reconcile tax liens on
                                                           the ALS with information shown on the taxpayer accounts.
                                                05/15/06   F-2, R-3, P-1. Clarify procedures to employees that all estate tax liens
                                                           should be recorded on the ALS.

2001-30-052    Tax Compliance   March 2001                 Program Improvements Are Needed to Encourage Taxpayer
                  Initiatives                              Compliance in Reporting Foreign Sourced Income

                                                06/15/06   F-2, R-1, P-1. Identify the highest risk foreign sourced income
                                                           documents and use them to coordinate with tax treaty partners to
                                                           positively identify the U.S. taxpayers involved.
                                                01/01/07   F-3, R-1, P-1, P-2. Improve systems that process data the IRS receives
                                                           on foreign sourced income.

2002-30-156    Tax Compliance   September                  The Internal Revenue Service Does Not Penalize Employers that File
                  Initiatives     2002                     Wage and Tax Statements with Inaccurate Social Security Numbers

                                                08/15/06   F-1, R-1, P-1. Ensure that the IRS initiate, as proposed in its response to
                                                           our memorandum dated February 1, 2002, a regularly scheduled program
                                                           for proposing penalties for Forms W-2 with inaccurate name/SSN
                                                           combinations.




                                                     October 1, 2005 through March 31, 2006                                         45
       TIGTA Semiannual Report to Congress




                      IRS                              Projected     Report Title and Recommendation Summary
     Reference     Management                         Completion     (F = Finding No., R = Recommendation No.,
                                         Issued
      Number        Challenge                            Date                        P = Plan No.)
                      Area
     2003-20-049   Security of the IRS    February                 Employee Background Investigations Were Normally Completed;
                                            2003                   However, the Contractor Employee Background Investigation Program
                                                                   Needs Improvement

                                                        06/30/06   F-2, R-5, P-2. Ensure that personnel in the Real Estate and Facilities area
                                                                   of the Agency-wide Shared Services are adequately trained regarding the
                                                                   requirements for issuing a contractor employee an IRS identification
                                                                   badge.

     2003-10-054   Using Performance     March 2003                The Internal Revenue Service Needs to Establish an Effective Process
                      and Financial                                to Accurately Identify, Record, and Report Unemployment Trust Fund
                     Information for                               Administrative Expenses
                   Program and Budget
                        Decisions                       10/01/07   F-1, R-3, P-1. Ensure that the ability to record and report trust fund
                                                                   administrative expenses, as currently envisioned in the IFS development
                                                                   plans, is properly implemented.

     2003-10-094     Erroneous and       March 2003                Improvements Are Needed in the Monitoring of Criminal Investigation
                   Improper Payments                               Controls Placed on Taxpayers’ Accounts When Refund Fraud is
                                                                   Suspected

                                                        05/15/06   F-1, R-2, P-1. Ensure that regular reviews of the Questionable Refund
                                                                   Program are conducted to assess compliance with procedures and that
                                                                   feedback is provided regarding program effectiveness. Also, analyses of
                                                                   the FDCs’ control listing data should be analyzed to ensure reviews are
                                                                   done and accounts are resolved.

     2003-40-139    Tax Compliance       June 2003                 Opportunities Exist to Improve the Administration of the Earned
                       Initiatives                                 Income Tax Credit

                                                        09/30/06   F-1, R-2, P-1. Establish a consistent method to measure progress toward
                                                                   the EITC Program’s long-term goals.

     2003-20-118   Security of the IRS   July 2003                 Security Over Computers Used in Telecommuting Needs to Be
                                                                   Strengthened

                                                        01/15/08   F-1, R-6, P-1. Require front-line managers to periodically check their
                                                                   employees’ laptop computers to ensure that sensitive data are being
                                                                   stored and encrypted properly.

     2003-30-162    Tax Compliance         August                  The Regulations for Granting Extensions of Time to File are Delaying
                       Initiatives          2003                   the Receipt of Billions of Tax Dollars and Creating Substantial Burden
                                                                   for Compliant Taxpayers

                                                        07/15/06   F-1, R-1, P-1. Revise the tax regulations applicable to individual
                                                                   taxpayers.

     2003-30-176    Tax Compliance         August                  Interest Paid to Large Corporations Could Significantly Increase
                       Initiatives          2003                   Under a Proposed New Revenue Procedure

                                                        12/15/07   F-1, R-2, P-1. Gather pertinent information concerning the affected
                                                                   proposed procedure to reduce the length of examinations and interest
                                                                   costs by conducting a pilot program to demonstrate the actual benefits
                                                                   that could be achieved.




46         October 1, 2005 through March 31, 2006
                                                    TIGTA Semiannual Report to Congress




                 IRS                               Projected             Report Title and Recommendation Summary
Reference     Management                          Completion             (F = Finding No., R = Recommendation No.,
                                     Issued
 Number        Challenge                             Date                                P = Plan No.)
                 Area
2003-10-212     Human Capital        September                         Information on Employee Training Is Not Adequate to Determine
                                       2003                            Training Cost or Effectiveness

                                                  P-2, P-4: 10/01/07   F-3, R-2, P-2, P-3, P-4. Ensure that IRS training and financial systems
                                                    P-3: 01/30/07      can provide information needed for the IRS to assess its own training
                                                                       efforts.
2004-20-001       Systems             October                          Risks Are Mounting As the Integrated Financial System Project Team
              Modernization of the     2003                            Strives to Meet An Aggressive Implementation Date
                     IRS
                                                      12/31/10         F-2, R-1, P-1. Ensure the disaster recovery environment is completely
                                                                       built out and tested.

2004-40-013    Providing Quality     November                          Improvements Are Needed in the Screening and Monitoring of E-File
               Taxpayer Service        2003                            Providers to Protect Against Filing Fraud
                  Operations
                                                      01/01/07         F-1, R-2, P-1. Enhance the screening procedures for E-File providers to
                                                                       include sending scanned fingerprints to the FBI electronically.

2004-30-038     Tax Compliance        January                          Access to the Toll-Free Telephone System Was Significantly Improved in
                   Initiatives         2004                            2003, but Additional Enhancements Are Needed

                                                      01/15/07         F-3, R-1, P-1. Develop an activity-based costing system that reliably captures
                                                                       and reports both the total cost and the cost-per-call of providing services on
                                                                       each toll-free product line.

2004-30-068     Tax Compliance       March 2004                        Additional Efforts Are Needed to Improve the Bank Secrecy Act
                   Initiatives                                         Compliance Program

                                                      02/15/06         F-2, R-1, P-1. Develop standard risk-based case selection criteria that
                                                                       would provide minimum requirements and parameters for case selection.
                                                      04/15/06         F-2, R-2, P-1. Reinforce the importance of case documentation with
                                                                       specific instructions or case models and implement a centralized quality
                                                                       review process.

2004-40-098     Erroneous and        May 2004                          Better Use of the National Account Profile During Returns Processing
              Improper Payments                                        Can Eliminate Erroneous Payments

                                                      09/30/06         F-2, R-1, P-1. Conduct studies on the accuracy of EITC claims on tax
                                                                       returns for individuals that have been claimed for EITC purposes that are
                                                                       20 or more years older than the primary taxpayer, or are listed as children
                                                                       that are up to 19 years older than the primary taxpayer.

2004-30-127     Tax Compliance         August                          The Return Delinquency Notice Program Could Be Used More
                   Initiatives          2004                           Effectively to Promote Filing Compliance and Reduce the Tax Gap

                                                      01/15/07         F-2, R-1, P-1. Reevaluate the administrative dollar tolerance for freezing
                                                                       refunds to determine if it can be reset at a lower level.

2004-20-129   Security of the IRS      August                          The Certification and Accreditation of Computer Systems Should
                                        2004                           Remain in the Computer Security Material Weakness

                                                      09/15/06         F-1, R-1, P-2. Keep the certification and accreditation of computer
                                                                       systems as part of the computer security material weakness until a
                                                                       sufficient number of systems have been certified and accredited.




                                                          October 1, 2005 through March 31, 2006                                                 47
       TIGTA Semiannual Report to Congress




                      IRS                              Projected             Report Title and Recommendation Summary
     Reference     Management                         Completion             (F = Finding No., R = Recommendation No.,
                                         Issued
      Number        Challenge                            Date                                P = Plan No.)
                      Area
     2004-20-135   Security of the IRS     August                          The Audit Trail System for Detecting Improper Activities on
                                            2004                           Modernized Systems Is Not Functioning

                                                          04/01/06         F-1, R-1, P-1. Ensure that SAAS performance and functionality
                                                                           requirements are adequately tested and implemented so that the IRS and
                                                                           TIGTA can perform queries and generate audit trail reports.
                                                          06/15/06         F-2, R-1, P-1. Ensure that SAAS operating procedures are fully
                                                                           developed and finalized so that business units can conduct effective and
                                                                           efficient audit trail reviews of modernized applications.

     2004-20-131   Security of the IRS   September                         The Use of Audit Trails to Monitor Key Networks and Systems Should
                                           2004                            Remain Part of the Computer Security Material Weakness

                                                          11/01/06         F-2, R-4, P-1. Develop and implement a reasonable approach for
                                                                           reviewing audit trails over major applications.

     2004-30-133    Tax Compliance       September                         The Controls for Examination Processes for Industry Cases With
                       Initiatives         2004                            International Transfer Pricing Issues Can Be Improved

                                                          06/15/06         F-1, R-1, P-1. Reemphasize the Transfer Pricing Compliance Directive
                                                                           and incorporate it into the IRM.

     2004-20-155   Security of the IRS   September                         Computer Security Roles and Responsibilities and Training Should
                                           2004                            Remain Part of the Computer Security Material Weakness

                                                          09/15/06         F-3, R-2, P-1. Establish a process to identify employees with key security
                                                                           responsibilities, monitor their participation in training courses, and follow
                                                                           up with managers, if necessary.
                                                          10/15/06         F-3, R-3, P-1. Ensure that employees with key security responsibilities
                                                                           are adequately trained to perform security duties and tasks.

     2004-10-182   Using Performance     September                         The Internal Revenue Service Faces Significant Challenges to Reduce
                      and Financial        2004                            Underused Office Space Costing $84 Million Annually
                     Information for
                   Program and Budget                     10/01/06         F-2, R-3, P-1. Consider allocating rent funds to the operating divisions to
                        Decisions                                          help ensure more efficient use of space and more communication
                                                                           between the facility managers and the local operating divisions; consider
                                                                           incentives and consequences to ensure better cooperation.
                                                          10/15/06         F-3, R-1, P-1. Require facility managers to report vacancies based on
                                                                           division requirements for telecommuting employees.

     2005-40-026    Providing Quality     February                         Processes Used to Ensure the Accuracy of Information for Individual
                    Taxpayer Service        2005                           Taxpayers on IRS.GOV Need Improvement
                       Operations
                                                        P-2: 10/01/06      F-1, R-1, P-2, P-4. Develop a process to ensure that only authorized
                                                        P-4: 12/31/10      personnel have access to IRS.gov content.
                                                      P-1, P-2: 12/31/10   F-1, R-2, P-1, P-2. Enhance the IRS’ content management software
                                                                           application to provide the ability to identify specific content accessed or
                                                                           revised by individual users.

     2005-20-024   Security of the IRS   March 2005                        The Disaster Recovery Program Has Improved, But It Should Be
                                                                           Reported as a Material Weakness Due to Limited Resources and
                                                                           Control Weaknesses

                                                          12/31/10         F-1, R-1, P-1, P-5. Report a disaster recovery program material weakness
                                                                           to the Department of the Treasury as part of the IRS’ Federal Managers’
                                                                           Financial Integrity Act of 1982 annual evaluation of controls and include
                                                                           any new or currently underway activities in the corrective action plan.




48         October 1, 2005 through March 31, 2006
                                            TIGTA Semiannual Report to Congress




                 IRS                         Projected     Report Title and Recommendation Summary
Reference     Management                    Completion     (F = Finding No., R = Recommendation No.,
                               Issued
 Number        Challenge                       Date                        P = Plan No.)
                 Area
2005-30-048   Tax Compliance   March 2005                Stronger Sanctions Are Needed to Encourage Timely Filing of Pass
                 Initiatives                             Through Returns and Ensure Fairness in the Tax System

                                              02/15/07   F-1, R-3, P-1. Develop a legislative proposal to be submitted to the
                                                         Department of the Treasury that would amend I.R.C. § 6698 to increase
                                                         the penalty for late-filed partnership returns from $50 per partner per
                                                         month to $200 per partner per month.
                                              02/15/07   F-1, R-4, P-1. Develop a legislative proposal to be submitted to the
                                                         Department of the Treasury that would amend I.R.C. § 6698 to remove
                                                         the five-month limitation on the number of months of delinquency that
                                                         the late-filing penalty is assessed on partnership returns.
                                              02/15/07   F-1, R-5, P-1. Develop a legislative proposal to be submitted to the
                                                         Department of the Treasury that would amend I.R.C. § 6698 to make all
                                                         requirements of the law applicable to S corporations as well as
                                                         partnerships.
                                              02/15/07   F-1, R-6, P-1. Develop a legislative proposal to be submitted to the
                                                         Department of the Treasury that would amend I.R.C. § 6721 to require
                                                         the assessment of a $200 penalty per Schedule K-1 for the failure to
                                                         timely provide Schedules K-1 to the IRS when a partnership or S
                                                         corporation return is filed late.
                                              02/15/07   F-1, R-7, P-1. Develop a legislative proposal to be submitted to the
                                                         Department of the Treasury that would amend I.R.C. § 6722 to require
                                                         the assessment of a $200 penalty per Schedule K-1 for the failure to
                                                         timely provide Schedules K-1 to payees when a partnership or S
                                                         corporation return is filed more than seven days beyond the return due
                                                         date.
                                              02/15/07   F-1, R-8, P-1. Conduct a study to determine whether fixed-dollar
                                                         penalties set at a $200 level in I.R.C. § 6698, 6721, and 6722 will be
                                                         effective in ensuring future compliance or whether other penalty types
                                                         and/or higher amounts would be more effective.
2005-30-052   Tax Compliance   March 2005                Procedures Regarding the Failure to Pay Tax Penalty Result in
                 Initiatives                             Inconsistent Treatment of Taxpayers and Hundreds of Millions of
                                                         Dollars in Lost Revenue

                                              07/15/06   F-1, R-1, P-1. Request programming changes that would cause accrued
                                                         FTP tax penalties to be assessed on a periodic basis.
                                              07/15/06   F-1, R-3, P-1. Ensure that notices containing FTP tax penalty
                                                         assessments include information informing taxpayers that interest is being
                                                         charged on the FTP tax penalties until they are fully paid.
2005-30-053   Tax Compliance   March 2005                Opportunities Exist to Improve the Effectiveness and Efficiency of the
                 Initiatives                             Automated 6020(b) Program

                                              06/15/06   F-2, R-1, P-1. Raise the dollar level of the risk-based criteria for stand-
                                                         alone TDI cases as a means of increasing the workload coming into the
                                                         Automated 6020(b) Program with cases that would otherwise remain
                                                         unworked in the Queue.
                                              06/15/06   F-2, R-2, P-1. Modify the programming to add TDIs involving excise tax
                                                         returns to the Automated 6020(b) Program.

2005-10-070    Human Capital   March 2005                The Human Resources Investment Fund is Not a Cost-Effective
                                                         Method of Providing Tuition Assistance

                                              04/15/06   F-2, R-1, P-1. Consider eliminating the HRIF Program and provide
                                                         tuition assistance through alternative means such as the Individual
                                                         Development Plan process and the Career Transition Assistance Program.




                                                 October 1, 2005 through March 31, 2006                                        49
       TIGTA Semiannual Report to Congress




                      IRS                                Projected     Report Title and Recommendation Summary
     Reference     Management                           Completion     (F = Finding No., R = Recommendation No.,
                                           Issued
      Number        Challenge                              Date                        P = Plan No.)
                      Area
     2005-20-074       Systems             April 2005                Business Cases for Information Technology Projects Need
                   Modernization of the                              Improvement
                          IRS
                                                          05/01/06   F-4, R-1, P-1. Project Managers of operational systems should document
                                                                     the results of E-Government reviews in the projects’ business cases.
     2005-40-077    Processing Returns     April 2005                Taxpayers Identified as Serving in Combat Zones Were Properly
                    and Implementing                                 Afforded Tax Benefits but Account Identification and Maintenance
                    Tax Law Changes                                  Processes Need Improvement
                   during the Tax Filing
                          Season                          05/15/06   F-1, R-2, P-2. To ensure Combat Zone indicators are accurate, develop a
                                                                     quality review program to review a sample of the accounts that are closed
                                                                     automatically using the new program to ensure the reversal of the active
                                                                     Combat Zone indicator is correct. Also, include a sample review of the
                                                                     remaining active accounts to verify the program is not missing any
                                                                     accounts that should be reversed.
     2005-10-107     Human Capital         July 2005                 Improved Policies and Guidance Are Needed for the Telework
                                                                     Program

                                                          07/15/06   F-1, R-1, P-1. Ensure an IRS-wide Flexiplace Program policy is
                                                                     developed and implemented that addresses all the elements recommended
                                                                     by the OPM.
                                                          07/15/06   F-1, R-2, P-1. Take steps to implement the Flexiplace Program tracking
                                                                     system.
                                                          07/15/06   F-2, R-1, P-1. Implement guidelines to assist managers in evaluating
                                                                     employees’ abilities to participate in the Flexiplace Program without a
                                                                     loss in productivity.
                                                          07/15/06   F-2, R-2, P-1. Ensure Flexiplace Program training is provided as needed
                                                                     to help address productivity concerns.
                                                          07/15/06   F-2, R-3, P-1. Assess the logistical support and equipment needs of
                                                                     Flexiplace Program participants to help ensure there is no loss in
                                                                     productivitiy.
                                                          07/15/06   F-3, R-1, P-1. Work with the OPM to develop appropriate policies and
                                                                     procedures related to official duty station designations for employees who
                                                                     participate in the Flexiplace Program.
     2005-20-108    Security of the IRS    July 2005                 More Management Attention Is Needed to Protect Critical Assets

                                                          04/15/06   F-1, R-1, P-1. Coordinate with all business units to complete the process
                                                                     of identifying a current list of critical assets to comply with HSPD-7 and
                                                                     ensure the protection of those assets.
                                                          11/30/06   F-1, R-2, P-1. Coordinate with all business units at least annually to
                                                                     confirm the IRS’ list of critical assets is accurate and complete.

     2005-40-110    Providing Quality      July 2005                 The Effectiveness of the Taxpayer Assistance Center Program Cannot
                    Taxpayer Service                                 Be Measured
                       Operations
                                                          10/15/07   F-1, R-1, P-1. Enhance the management information system to capture
                                                                     the number of taxpayers served, the numbers and types of services
                                                                     provided, and the related resources.
                                                          10/15/06   F-1, R-2, P-1. Develop a Service Delivery Plan for the short-term and
                                                                     long-term direction of the TAC Program based on business cases and
                                                                     customer input.
                                                          10/15/06   F-1, R-3, P-1. Develop a process that includes routine assessments of
                                                                     TAC operations to ensure the TACs are optimally located and the
                                                                     services provided at the TACs are the most effective and cost efficient.




50         October 1, 2005 through March 31, 2006
                                                 TIGTA Semiannual Report to Congress




                 IRS                              Projected         Report Title and Recommendation Summary
Reference     Management                         Completion         (F = Finding No., R = Recommendation No.,
                                     Issued
 Number        Challenge                            Date                            P = Plan No.)
                 Area
2005-30-126     Tax Compliance        August                      Additional Work Is Needed to Determine the Extent of Employment
                   Initiatives         2005                       Tax Underreporting

                                                   10/15/06       F-1, R-1, P-1. Develop methodologies designed to evaluate the extent of
                                                                  underreporting by employers.

2005-20-128       Systems             August                      Security Controls Were Not Adequately Considered in the Development
              Modernization of the     2005                       and Integration Phases of Modernization Systems
                     IRS
                                                   07/15/06       F-2, R-1, P-1. Enhance the Security Test and Evaluation process to
                                                                  include the use of additional off-the-shelf security testing tools to identify
                                                                  security vulnerabilities.

2005-40-133     Erroneous and         August                      Administration of the Earned Income Tax Credit Program Has
              Improper Payments        2005                       Improved, but Challenges Continue

                                                   05/15/06       F-1, R-1, P-1. Analyze the results of the SLA currently in operation to
                                                                  ensure all functions are working within the agreements reached.

2005-10-129    Providing Quality     September                    Progress Has Been Made, but Further Improvements Are Needed in
               Taxpayer Service        2005                       the Administration of the Low Income Taxpayer Clinic Grant Program
                  Operations
                                                   05/15/07       F-1, R-1, P-2. Establish goals and performance measures for the LITC
                                                                  program to assist the Congress and IRS in evaluating the success of the
                                                                  program.
                                                   05/15/06       F-2, R-2, P-3. Provide guidance in Publication 3319 to indicate whether
                                                                  a clinic may receive funding solely for making referrals to other clinics.
                                                   05/15/06       F-2, R-3, P-2. Provide guidance in Publication 3319 as to the types of
                                                                  media broadcasts and articles that will qualify under the LITC program.
                                                   04/15/06       F-3, R-2, P-1. Develop a method to obtain information necessary to
                                                                  verify clinics are following all LITC program requirements.
                                                   06/15/06       F-3, R-4, P-1. Develop a sampling methodology that prioritizes clinics
                                                                  based on indicators in clinics’ applications and in their interim and final
                                                                  reports.
                                                   01/15/07       F-4, R-1, P-4. Establish procedures to check for tax compliance before
                                                                  awarding LITC program grants and consider periodic tax compliance
                                                                  checks during the grant period.
2005-30-140     Tax Compliance       September                    Improved IRS Coordination Is Needed to Resolve Large Volumes of
                   Initiatives         2005                       Fraudulent Schedule C Refund Returns

                                                 P-1: 07/15/06    F-1, R-1, P-1, P-2, P-3, P-4. Develop an overall compliance strategy for
                                                 P-2, P-3, P-4:   Schedules C with fraudulent refunds, especially when large volumes of
                                                   04/15/06       returns are involved.
                                                 P-1: 07/15/06    F-1, R-2, P-1, P-2, P-3, P-4. Identify potential computerized methods
                                                 P-2, P-3, P-4:   incorporating possible math error authority to temporarily stop refunds
                                                   04/15/06       for cases meeting the characteristics of those in this scheme or other large
                                                                  Schedule C refund schemes.




                                                       October 1, 2005 through March 31, 2006                                              51
       TIGTA Semiannual Report to Congress




                      IRS                               Projected        Report Title and Recommendation Summary
     Reference     Management                          Completion        (F = Finding No., R = Recommendation No.,
                                           Issued
      Number        Challenge                             Date                           P = Plan No.)
                      Area
     2005-10-149      Human Capital        September                   The Internal Revenue Service Does Not Adequately Assess the
                                             2005                      Effectiveness of Its Training

                                                         04/15/06      F-1, R-1, P-1, P-2. Require all business units to follow the training
                                                                       assessment and develop requirements and properly document this
                                                                       process.
                                                         10/15/06      F-2, R-1, P-1, P-2. Ensure all IRS components follow established
                                                                       procedures to evaluate training in order for the IRS to comply with the
                                                                       training assessment requirement of the Federal Workforce Flexibility Act
                                                                       of 2004.
                                                         04/15/06      F-3, R-1, P-1. Use the numerical scores from the Employee Satisfaction
                                                                       Survey training question in addition to narrative comments.

     2005-30-154    Processing Returns     September                   The Clarity of Math Error Notices Has Been Improved, but Further
                    and Implementing         2005                      Changes Could Enhance Notice Clarity and Reduce Unnecessary
                    Tax Law Changes                                    Notices
                   During the Tax Filing
                         Season                        P-1: 04/15/07   F-1, R-2, P-1, P-2. Revise tax statement tables contained on notices to
                                                       P-2: 12/15/06   include specific amounts from at least some line items on which
                                                                       taxpayers made errors on their tax returns.
                                                       P-1: 04/15/07   F-1, R-3, P-1, P-2. Revise CP16 to present information in a manner
                                                       P-2: 11/15/06   consistent with the other notices sent to individual taxpayers including the
                                                                       location of the error explanation and tax statement, and the wording of the
                                                                       taxpayers’ rights to appeal with the math error adjustment..
                                                         01/15/07      F-1, R-5, P-1. Ensure employees perform research and suppress notices
                                                                       from going to taxpayers who paid the proper amounts.
     2005-30-165   Does Not Apply to a     September                   Information From States’ Tax Amnesty Programs Could Bolster
                      Management             2005                      Compliance Efforts and Ensure Federal Tax Obligations Are Also Met
                     Challenge Area
                                                         04/15/06      F-1, R-1, P-1. Analyze the current exchange programs to determine
                                                                       whether the state tax amnesty information will be obtained through the
                                                                       Reverse Filing Match, or any other current program.
                                                         04/15/06      F-1, R-2, P-1. Seek agreements with the States to separately obtain all
                                                                       State tax amnesty information.
                                                         09/15/06      F-1, R-3, P-1. Supplement IRS compliance information with that from
                                                                       State tax amnesty programs.




52         October 1, 2005 through March 31, 2006
                                          TIGTA Semiannual Report to Congress




                                                       Other Statistical Reports
         The Inspector General Act of 1978 requires Inspectors General
                        to address the following issues:

                       Issue                                       Result for TIGTA

Access to Information
Report unreasonable refusals of information            As of March 31, 2006, there were no
available to the agency that relate to programs and    instances in which information or assistance
operations for which the Inspector General has         requested by the Office of Audit was refused.
responsibilities.

                                                       As of March 31, 2006, one report was issued
                                                       in which significant recommendations were
Disputed Audit Recommendations
                                                       disputed: The Office of Professional
Provide information on significant management
                                                       Responsibility Can Do More to Effectively
decisions in response to audit recommendations with
                                                       Identify and Act Against Incompetent and
which the Inspector General disagrees.
                                                       Disreputable Tax Practitioners, Report
                                                       Reference No. 2006-10-066.

Revised Management Decisions
Provide a description and explanation of the reasons   As of March 31, 2006, no significant
for any significant revised management decisions       management decisions were revised.
made during the reporting period.


Audit Reports Issued in the Prior Reporting
Period With No Management Response
                                                       As of March 31, 2006, there were no prior
Provide a summary of each audit report issued
                                                       reports for which management’s response
before the beginning of the current reporting period
                                                       was not received.
for which no management response has been
received by the end of the current reporting period.


Review of Legislation and Regulations
                                                       TIGTA’s Office of Chief Counsel reviewed
Review existing and proposed legislation and
                                                       189 proposed regulations and legislative
regulations, and make recommendations concerning
                                                       requests during this reporting period.
the impact of such legislation or regulations.




                                               October 1, 2005 through March 31, 2006                  53
Death and taxes and childbirth!
There’s never any convenient
time for any of them!


              ~Margaret Mitchell
                                                  TIGTA Semiannual Report to Congress




                                                                   Appendix II
                                                                Audit Products

                                                  October 1, 2005 – March 31, 2006

                                                   Inspector General Congressional Testimony
 Reference
                                                            Hearing Title
  Number
               October 2005
2006-OT-083    Uncollected Taxes: Can We Reduce the $300 Billion Tax Gap?
               March 2006
2006-TO1-072   Internal Revenue Service’s Fiscal Year 2007 Budget




                                                                                                  Audit Products
 Reference
                                                            Report Title
  Number
               October 2005
2006-20-001    The Excise Files Information Retrieval System Has Not Been Effectively Implemented

2006-20-002    While Improvements Have Been Made, Business Systems Modernization Cost and Schedule Estimation
               Processes Have Not Always Been Followed and Major Changes Are Planned
               November 2005

2006-40-005    Enhancements Could Be Made to Minimize Internal Revenue Service Employee and Volunteer Return
               Preparation Program Participant Integrity Issues

               Significant Improvements Have Been Made in the Oversight of the Volunteer Income Tax Assistance Program,
2006-40-004
               but Continued Effort Is Needed to Ensure the Accuracy of Services Provided
               Efforts to Prevent Improper Tax Benefits Resulting From Multiple Uses of Taxpayer Identification Numbers
               Can Be Improved (Revenue Protected: $153,436,940; Reliability of Information: 8,185 taxpayer identification
2006-40-007
               numbers incorrectly shown as having been used more than once) Note: monetary benefit projected over a five-
               year period
2006-10-008    Continued Monitoring of the PRIME Contractor Is Needed to Ensure Proper Billing

               The Business Systems Modernization Program Has Achieved Mixed Success in Addressing Weaknesses
2006-20-003
               Identified in Internal and External Studies

               The Internal Revenue Service Needs a Coordinated National Strategy to Better Address an Estimated
2006-30-006
               $30 Billion Tax Gap Due to Non-filers




                                                        October 1, 2005 through March 31, 2006                               55
       TIGTA Semiannual Report to Congress


                                                                                                     Audit Products
      Reference
                                                               Report Title
       Number
                   December 2005
                   Improved Internal Controls and Contact Recording Are Needed to Ensure the Accuracy and Reliability of
     2006-40-022   the Taxpayer Assistance Centers Quality Measurement System (Reliability of Information: 623 assistors
                   with missing or extra observations; 14,225 Data Collection Instruments contained errors)
     2006-20-009   Instilling More Discipline to Business Rules Management Will Help the Modernization Program Succeed

                   Progress Has Been Made in Using the Tivoli Software Suite, Although Enhancements Are Needed to
     2006-20-021
                   Better Distribute Software Updates and Reconcile Computer Inventories
                   Improved Cellular Telephone Inventory Controls Resulted in Significant Savings (Funds Put to Better
     2006-20-025
                   Use: $6,979,200) Note: monetary benefit projected over a five-year period.
                   The Alternatives for Designing and Developing the Filing and Payment Compliance Project Should Be
     2006-20-026   Revalidated (Reliability of Information: $17,446 billion in inaccurate or incomplete information used to
                   support business decisions)
     2006-1C-010   Report on Audit of Accounting System and Related Internal Controls
     2006-1C-011   Report on Audit of Cost Impact Statement
     2006-1C-012   Incurred Cost Audit for Fiscal Year 2001
     2006-1C-013   Incurred Cost Audit for the Period July 1, 2000, through September 30, 2001
     2006-1C-014   TIRNO-95-D-00061 and TIRNO-00-D-00013, Incurred Costs Audit for Fiscal Year 2003
                   The Wage and Investment Division Compliance Function Should Link Annual Performance to
     2006-40-023
                   Long-Term Goals and Improve Data Collection
                   Individual Income Tax Returns Were Timely Processed in 2005; However, Implementation of Tax Law
                   Changes Could Be Improved (Revenue Protection: $4,380,521 impacting 19,103 taxpayers; Taxpayer
     2006-40-024   Rights and Entitlements: 2,749 taxpayers understated their Earned Income Tax Credit by $1.9 million
                   because earned income included nontaxable combat pay. Also, 465,095 taxpayers may have overlooked
                   the state sales tax deduction)
                   Voucher Audit of the Federal Financial System Software Technical Support Services Contract –
     2006-10-027
                   TIRNO-04-T-00116
                   The Custodial Detail Database Should Help Improve Accountability; However, Significant Financial
     2006-10-029
                   Management Issues Still Need to Be Addressed
                   January 2006
                   The Criminal Investigation Function Should Consider Changes to Its Custody of Original Tax Returns
     2006-10-028
                   and Controls for Accessing Tax Information Electronically
                   TIRNO-95-D-00066, TIRNO-00-D-00020, and TIRNO-99-D-00001, Incurred Costs Audit for
     2006-1C-015
                   Fiscal Year Ended June 30, 2003
     2006-1C-017   Preaward Survey of Prospective Contractor’s Accounting System
     2006-1C-018   Report on Audit of Purchasing System and Related Internal Controls
     2006-1C-019   Billing System Review
     2006-1C-016   Report on Audit of Contractor’s Budget and Planning System
                   February 2006
                   High-Risk Work Is Selected From the Unassigned Delinquent Account Inventory, but Some Unassigned
     2006-30-030
                   Accounts Need Management’s Attention
     2006-1C-020   Compensation System Audit
     2006-40-052   Taxpayer Service Is Improving, but Challenges Continue in Meeting Expectations
                   Secure Configurations Are Initially Established on Employee Computers, but Enhancements Could
     2006-20-031
                   Ensure Security Is Strengthened After Implementation
     2006-1C-032   Civil Group Fiscal Year 2006 Forward Pricing Indirect Rates




56         October 1, 2005 through March 31, 2006
                                                TIGTA Semiannual Report to Congress


                                                                                               Audit Products
 Reference
                                                          Report Title
  Number
2006-1C-036   Report on Audit of Indirect and Other Direct Costs System and Related Internal Controls
2006-1C-033   Civil Division Incurred Cost Audit for Fiscal Year 2001 (Questioned Costs: $11,837,225)
2006-1C-035   Incurred Cost Audit for Fiscal Year Ending September 30, 2003, TIRNO-00-D-00025
              Planning for the 2006 Filing Season Is on Course, but Challenges Exist for the Toll-Free Telephone
2006-40-053
              Operations
              March 2006
              Actions Are Planned to Extend the Grace Period Before Assessing the Failure to Pay Tax Penalty;
2006-30-057
              However, Computer Programming Needs to Be Corrected
              Further Enhancements to the Guidance for Testing Practices Will Help Ensure the Quality of
2006-20-051
              Modernization Projects
              Report on Agreed-Upon Procedures Evaluation – Verify Time-Charging and Personal Computer
2006-1C-034
              Allocation Costs
              Invoice Audit of the Taxpayer Burden Simulation Models Contract – TIRNO-03-D-00001 (Questioned
2006-10-060
              Costs: $1,938)
2006-40-061   The Taxpayer Assistance Center Closure Plan Was Based on Inaccurate Data
2006-10-062   The Administration of the Public Transportation Subsidy Program Can Be Improved
2006-30-055   Trends in Compliance Activities Through Fiscal Year 2005
              The Internal Revenue Service’s Federal Financial Management Improvement Act Remediation Plan As
2006-10-069
              of December 31, 2005
              Strengthened Management Processes Are Needed to Assure the Usefulness of Products and Services
2006-20-063   Received Through the Infrastructure Shared Services Task Order (Inefficient Use of Resources:
              $310,863)
              The Internal Revenue Service Provided Interim Guidance and Plans to Take Additional Actions to
2006-30-058
              Implement New Tax Shelter Penalty Provisions
              The Internal Revenue Service Successfully Accounted for Employees and Restored Computer Operations
2006-20-068
              After Hurricanes Katrina and Rita
              The Office of Professional Responsibility Can Do More to Effectively Identify and Act Against
              Incompetent and Disreputable Tax Practitioners (Taxpayer Burden: 7,124 taxpayers represented by
2006-10-066
              practitioners whose conduct warrants IRS disciplinary action; 22,500 practitioners are not complying
              with tax law)
2006-20-059   The Business Systems Development Organization Effectively Managed Its Contractors and Related Costs
              The Settlement Initiative for Investors in a Variety of Bond and Option Sales Strategies Was Successful
2006-30-065
              and Surfaced Possible Next Steps for Curtailing Abusive Tax Shelters
              The Field Assistance Office Has Taken Appropriate Actions to Plan for the 2006 Filing Season, but
2006-40-067
              Challenges Remain for the Taxpayer Assistance Center Program
2006-20-071   Federal Information Security Management Act Report for Fiscal Year 2005




                                                     October 1, 2005 through March 31, 2006                             57
Indoors or out, no one relaxes
In March, that month of wind
and taxes,
The wind will presently
disappear,
The taxes last us all the year.


                     ~Ogden Nash
                                                     TIGTA Semiannual Report to Congress




                                         Appendix III
                                   TIGTA’s Statutory
                             Reporting Requirements

TIGTA issued 11 audit reports required by statute dealing with the adequacy and security of IRS
technology during this reporting period. In FY 2006, TIGTA completed its eighth round of statutory
reviews that are required annually by the Internal Revenue Service Restructuring and Reform Act of 1998
(RRA 98). TIGTA also completed an annual review of the Federal Financial Management Improvement
Act of 1996 (FFMIA). The following table reflects the status of the FY 2006 statutory reviews.



      Reference to                Explanation of the                     Comments/TIGTA Audit Status
   Statutory Coverage                 Provision

Enforcement Statistics           Requires TIGTA to               Audit fieldwork in progress.
                                 evaluate the IRS’
Internal Revenue Code (I.R.C.)   compliance with
§ 7803(d)(1)(A)(i)               restrictions under section
                                 1204 of RRA 98 on the use
                                 of enforcement statistics to
                                 evaluate IRS employees.


Restrictions on Directly         Requires TIGTA to               Audit in planning phase.
Contacting Taxpayers             evaluate the IRS’
                                 compliance with restrictions
I.R.C.                           under I.R.C. § 7521 on
§ 7803(d)(1)(A)(ii)              directly contacting taxpayers
                                 who have indicated they
                                 prefer their representatives
                                 be contacted.

Filing of a Notice of Lien       Requires TIGTA to               Audit fieldwork in progress.
                                 evaluate the IRS’
I.R.C.                           compliance with required
§ 7803(d)(1)(A)(iii)             procedures under I.R.C.
                                 § 6320 upon the filing of a
                                 notice of lien.




                                                               October 1, 2005 through March 31, 2006     59
     TIGTA Semiannual Report to Congress


           Reference to                 Explanation of the                        Comments/TIGTA Audit Status
        Statutory Coverage                  Provision

     Extensions of the Statute of      Requires TIGTA to include         Audit fieldwork in progress.
     Limitations for Assessment        information regarding
     of Tax                            extensions of the statute of
                                       limitations for assessment
     I.R.C.                            of tax under I.R.C. § 6501
     § 7803(d)(1)(C)                   and the provision of notice
                                       to taxpayers regarding the
     I.R.C.                            right to refuse or limit the
     § 6501(c)(4)(B)                   extension to particular
                                       issues or a particular
                                       period of time.


     Levies                            Requires TIGTA to                 Audit fieldwork in progress.
                                       evaluate the IRS’
     I.R.C.                            compliance with required
     § 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                       § 6330 regarding levies.


     Collection Due Process            Requires TIGTA to                 Audit fieldwork in progress.
                                       evaluate the IRS’
     I.R.C.                            compliance with required
     § 7803(d)(1)(A)(iii) and (iv)     procedures under I.R.C.
                                       §§ 6320 and 6330 regarding
                                       the taxpayers’ rights to
                                       appeal lien or levy actions.


     Seizures                          Requires TIGTA to                 Audit fieldwork in progress.
                                       evaluate the IRS’
     I.R.C.                            compliance with required
     § 7803(d)(1)(A)(iv)               procedures under I.R.C.
                                       §§ 6330 through 6344 when
                                       conducting seizures.


     Taxpayer Designations – Illegal   An evaluation of IRS’             Audit fieldwork in progress.
     Tax Protester Designation and     compliance with
     Nonfiler Designation              restrictions under
                                       section 3707 of RRA 98 on
     I.R.C.                            designation of taxpayers.
     § 7803(d)(1)(A)(v)


     Disclosure of Collection          Requires TIGTA to review          Audit in planning phase.
     Activities With Respect to        and certify whether the IRS
     Joint Returns                     is complying with I.R.C.
                                       § 6103(e)(8) to disclose
     I.R.C.                            information to an individual
     § 7803(d)(1)(B)                   filing a joint return on
                                       collection activity involving
     I.R.C.                            the other individual filing the
     § 6103(e)(8)                      return.




60         October 1, 2005 through March 31, 2006
                                                     TIGTA Semiannual Report to Congress


      Reference to                  Explanation of the                      Comments/TIGTA Audit Status
   Statutory Coverage                   Provision

Taxpayer Complaints                Requires TIGTA to include       Statistical results on the number of taxpayer
                                   in each of its Semiannual       complaints received are shown on page 43.
I.R.C.                             Reports to Congress the
§ 7803(d)(2)(A)                    number of taxpayer
                                   complaints received and the
                                   number of employee
                                   misconduct and taxpayer
                                   abuse allegations received
                                   by IRS or TIGTA from
                                   taxpayers, IRS employees
                                   and other sources.


Administrative or Civil Actions    Requires TIGTA to include       Discussion draft audit report issued to IRS management.
With Respect to the Fair Debt      information regarding any
Collection Practices Act of 1996   administrative or civil
                                   actions with respect to
I.R.C.                             violations of the fair debt
§ 7803(d)(1)(G)                    collection provision of
                                   I.R.C. § 6304, including a
I.R.C.                             summary of such actions,
§ 6304                             and any resulting judgments
Section 3466 of RRA 98             or awards granted.



Denial of Requests for             Requires TIGTA to include       Audit fieldwork in progress.
Information                        information regarding
                                   improper denial of requests
I.R.C.                             for information from the
§ 7803(d)(1)(F)                    IRS, based on a statistically
                                   valid sample of the total
I.R.C.                             number of determinations
§ 7803(d)(3)(A)                    made by the IRS to deny
                                   written requests to disclose
                                   information to taxpayers on
                                   the basis of I.R.C. § 6103 or
                                   5 U.S.C. § 552(b)(7).


Adequacy and Security of the       Requires TIGTA to evaluate      Information Technology Reviews:
Technology of the IRS              the IRS’ adequacy and           Reference Number 2006-20-001, October 2005
                                   security of its technology.     Reference Number 2006-20-002, October 2005
I.R.C.                                                             Reference Number 2006-20-003, November 2005
§ 7803(d)(1)(D)                                                    Reference Number 2006-20-009, December 2005
                                                                   Reference Number 2006-20-026, December 2005
                                                                   Reference Number 2006-20-051, March 2006
                                                                   Reference Number 2006-20-059, March 2006
                                                                   Reference Number 2006-20-063, March 2006

                                                                   Security Reviews:
                                                                   Reference Number 2006-20-021, December 2005
                                                                   Reference Number 2006-20-031, February 2006
                                                                   Reference Number 2006-20-068, March 2006




                                                         October 1, 2005 through March 31, 2006                              61
     TIGTA Semiannual Report to Congress


           Reference to              Explanation of the                     Comments/TIGTA Audit Status
        Statutory Coverage               Provision

     Federal Financial Management   Requires TIGTA to evaluate     Reference No. 2006-10-069, March 2006
     Improvement Act of 1996        the financial management
                                    systems to ensure              TIGTA determined that no intermediate target dates were
     31 U.S.C. § 3512               compliance with Federal        missed on the 38 open remedial actions; however, 23 dates
                                    requirements, or               were extended. The IRS has reasonable explanations for
                                    establishment of a             these extensions, and properly obtained concurrence from
                                    remediation plan with          the Office of Management and Budget on corrective actions
                                    resources, remedies, and       that extend beyond 3 years.
                                    intermediate target dates to
                                    bring the IRS into             The timely completion of up to 25 open remedial actions is
                                    substantial compliance.        in jeopardy due to significant funding shortfalls, including
                                                                   resources needed to further develop the Custodial Detail
                                                                   Data Base and the Integrated Financial System, two key
                                                                   financial management systems that address longstanding
                                                                   financial management weaknesses.

                                                                   These delays and funding shortfalls could further hinder the
                                                                   IRS’ ability to timely resolve the issues that cause its
                                                                   noncompliance with the FFMIA.




62        October 1, 2005 through March 31, 2006
                                                   TIGTA Semiannual Report to Congress




                                               Appendix IV
                              S e c t i o n 1203 S t a n d a r d s
In general, the Commissioner of Internal Revenue            •   Violating the Internal Revenue Code of 1986,
shall terminate the employment of any IRS                        Treasury regulations, or policies of the IRS
employee if there is a final administrative or judicial          (including the Internal Revenue Manual) for
determination that, in the performance of official               the purpose of retaliating against, or harassing
duties, such employee committed any misconduct                   a taxpayer, taxpayer representative, or other
violations outlined below. Such termination shall                employee of the IRS;
be a removal for cause on charges of misconduct.
                                                            •   Willfully misusing provisions of Section 6103
Misconduct violations include:                                   of the Internal Revenue Code of 1986 for the
                                                                 purpose of concealing information from a
•   Willfully failing to obtain the required approval            Congressional inquiry;
     signatures on documents authorizing the
     seizure of a taxpayer’s home, personal                 •   Willfully failing to file any return of tax
     belongings, or business assets;                             required under the Internal Revenue Code
                                                                 of 1986 on or before the date prescribed
•   Providing a false statement under oath with                  therefore (including any extensions), unless
      respect to a material matter involving a                   such failure is due to reasonable cause and
      taxpayer or taxpayer representative;                       not to willful neglect;
•   Violating, with respect to a taxpayer, taxpayer         •   Willfully understating Federal tax liability,
     representative, or other employee of the IRS,               unless such understatement is due to
     any right under the Constitution of the United              reasonable cause and not to willful neglect;
     States, or any civil right established under                and
     Title VI or VII of the Civil Rights Act of
     1964; Title IX of the Education Amendments             •   Threatening to audit a taxpayer for the purpose
     of 1972; Age Discrimination in Employment                   of extracting personal gain or benefit.
     Act of 1967; Age Discrimination Act of
                                                            The Commissioner of Internal Revenue may
     1975; Section 501 or 504 of the
                                                            mitigate the penalty of removal for the
     Rehabilitation Act of 1973; or Title I of the
                                                            misconduct violations outlined above. The
     Americans with Disabilities Act of 1990;
                                                            exercise of this authority shall be at the sole
•   Falsifying or destroying documents to                   discretion of the Commissioner and may not be
      conceal mistakes made by any employee                 delegated to any other officer. The
      with respect to a matter involving a                  Commissioner, in his/her sole discretion,
      taxpayer or taxpayer representative;                  may establish a procedure that will be used
•   Committing assault or battery on a taxpayer,            to determine whether an individual should
     taxpayer representative, or other employee             be referred to the Commissioner for
     of the IRS, but only if there is a criminal            determination. Any mitigation determination
     conviction, or a final judgment by a court             by the Commissioner in these matters may
     in a civil case, with respect to the assault           not be appealed in any administrative or
     or battery;                                            judicial proceeding.




                                                          October 1, 2005 through March 31, 2006                    63
In other words, a democratic
government is the only one in which
those who vote for a tax can escape
the obligation to pay it.


              ~Alexis de Tocqueville
                                         TIGTA Semiannual Report to Congress




                                     Appendix V
                           Data Tables Provided
                                      by the IRS
The memorandum copied below is the IRS transmittal to TIGTA. The tables that follow the
memorandum contain information exactly as provided by the IRS to TIGTA and consist of IRS
employee misconduct reports from the IRS Automated Labor and Employee Relations Tracking System
(ALERTS). Also, data concerning substantiated I.R.C. § 1203 allegations are included. IRS
management conducted inquiries into the cases reflected in these tables.




                                               October 1, 2005 through March 31, 2006             65
     TIGTA Semiannual Report to Congress




                                Report of Employee Misconduct for the Period
                                  October 01, 2005 through March 31, 2006
                                      Summary by Disposition Groups
                                         (Table provided by the IRS)


                                                                            Employee
                                     TIGTA        Administrative              Tax     Background
          Disposition                                                                                               Total
                                   Investigations    Cases                   Matter  Investigations
                                                                             Cases
      Removal                                    37                  136               29                     1         203
      Separation of
      Probationary Employees                       5                  77                4                    12              98
      Separation of Temporary
      Employees                                    1                   7                                      3              11
      Resignation/Retirement                     63                  128               80                    30         301
      Suspensions                                73                  208               85                     1         367
      Reprimands                                 99                  490              534                    19        1,142
      Counseling                                                     451              760                    52        1,263
      Alternative Discipline                     28                   89               38                     3         158
      Clearance                                 136                  148                9                               293
      Closed Without Action                     242                  392              199                  135          968
      Closed Without Action
      (Caution Statement)                       151                  119              134                    82         486
      Forwarded to TIGTA                                              10                                                     10
      Suspended – Waiting
      Supplemental                                 7                   1                                                      8
      Total                                     842                2,256            1,872                  338         5, 308




     Source: Automated Labor and Employee Relations Tracking System (ALERTS)

     This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
     January 14, 1999

     Extract Date: Sunday, April 02, 2006 Report ID = T1R3a




66        October 1, 2005 through March 31, 2006
                                                             TIGTA Semiannual Report to Congress




                             Report of Employee Misconduct for the Period
                               October 01, 2005 through March 31, 2006
                                          National Summary
                                      (Table provided by the IRS)


                                                                               Cases Closed
                                            Conduct
                         Opening                                                                        Closing
    Case Type                                Cases                                              Non-
                        Inventory                                 Conduct                              Inventory
                                            Received                                Duplicates Conduct
                                                                   Issues
                                                                                                Cases
TIGTA
Investigations
ROI1                              627                  814                 (842)              (11)             (0)            588

Administrative
Case2                           1,202                2,186               (2,256)              (55)             (3)          1,074

Employee Tax
Compliance Case3                1,228                1,331               (1,872)              (72)             (0)            615

Background
Investigations4                   162                  330                 (338)                (3)            (0)            151

Total                           3,219                4,661               (5,308)             (141)             (3)          2,428




Source: Automated Labor and Employee Relations Tracking System (ALERTS)

This report is being produced in accordance with 26 USC § 7803(d)(2) and § 4(a)2 of Treasury Delegation Order 115-01,
January 14, 1999

Extract Date: Sunday, April 02, 2006            Report ID = T1R1




1
  TIGTA Investigations (ROI) - Any matter involving an employee in which TIGTA conducted an investigation into alleged misconduct
and referred a Report of Investigation (ROI) to IRS for appropriate action.
2
  Administrative Case - Any matter involving an employee in which management conducted an inquiry into alleged misconduct.
3
  Employee Tax Compliance Case - Any conduct matter that is identified by the Employee Tax Compliance program which becomes a
matter of official interest.
4
  Background Investigations - Any matter involving an NBIC investigation into an employee’s background that is referred to
management for appropriate action.




                                                                  October 1, 2005 through March 31, 2006                            67
     TIGTA Semiannual Report to Congress



                                 Summary of Substantiated I.R.C. § 1203 Allegations
                                      Recorded in ALERTS for the Period
                                    October 01, 2005 through March 31, 2006
                                           (Table provided by the IRS)



                                                            Removed               In
           § 1203                       Resigned/ Probation
                                               1                     Penalty
                               Removals                     On Other           Personnel                                                            Total
          Violation                      Retired Separation          Mitigated
                                                            Grounds             Process

     Seizure
     Without
     Approval                                  0                 0                    0                  0                   0                 0        0
     False
     Statement
     Under Oath                                0                 1                    0                  0                   0                  0       1
     Constitutional
     & Civil Rights
     Issues                                    0                 0                    0                  0                   0                 0        0
     Falsifying or
     Destroying
     Records                                   1                 0                    0                  0                   0                 1        2
     Assault or
     Battery                                   0                 0                    0                  0                   0                  0       0
     Retaliate or
     Harass                                    0                 1                    0                  0                   0                  0       1
     Misuse of
     §6103                                     0                 0                    0                  0                   0                 0        0
     Failure to File
     Federal Tax
     Return                                    9               10                     2                  3                 31                 60      115
     Understatement
     of Federal Tax
     Liability                               30                12                     0                  9                 33                 48      132
     Threat to Audit
     for Personal
     Gain                                      1                 0                    0                  0                   0                 0        1
     Totals                                  41                24                     2                 12                 64                 109     252
     Source: Automated Labor and Employee Relations Tracking System (ALERTS) and § 1203 Review
     Board records.
     Extract Date: Thursday, April 06, 2006



     1
         The cases reported as “Removals” and “Penalty Mitigated” (see columns above) do not reflect the results of any third party appeal.




68        October 1, 2005 through March 31, 2006
